<html>
<title> - AFTER THE WITHDRAWAL: THE WAY FORWARD IN AFGHANISTAN AND PAKISTAN (PART II)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
AFTER THE WITHDRAWAL: THE WAY FORWARD IN AFGHANISTAN AND PAKISTAN (PART 
                                  II) 

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2013

                               __________

                           Serial No. 113-82

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

85-313 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida

                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Frederick W. Kagan, Ph.D., Christopher DeMuth chair and director, 
  Critical Threats Project, American Enterprise Institute for 
  Public Policy Research.........................................     7
General Jack Keane, USA, retired, chairman of the board, 
  Institute for the Study of War.................................    15
Ms. Lisa Curtis, senior research fellow, Asian Studies Center, 
  The Heritage Foundation........................................    27
Stephen Biddle, Ph.D., adjunct senior fellow for defense policy, 
  Council on Foreign Relations...................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Frederick W. Kagan, Ph.D.: Prepared statement....................     9
General Jack Keane: Prepared statement...........................    17
Ms. Lisa Curtis: Prepared statement..............................    29
Stephen Biddle, Ph.D.: Prepared statement........................    41

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    85
The Honorable Tulsi Gabbard, a Representative in Congress from 
  the State of Hawaii: Questions for the record submitted to 
  General Jack Keane.............................................    87


                     AFTER THE WITHDRAWAL: THE WAY
                       FORWARD IN AFGHANISTAN AND
                           PAKISTAN (PART II)

                              ----------                              


                       TUESDAY, OCTOBER 29, 2013

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committees met, pursuant to notice, at 2:15 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The joint subcommittee hearing will come 
to order. After recognizing myself, Chairman Chabot, Ranking 
Member Ted Deutch, and Ranking Member Faleomavaega, for 5 
minutes each for opening statements, we will then hear from our 
witnesses and without objection, the witnesses' prepared 
statements will be made a part of the record and members may 
have 5 days in which to insert statements and questions for the 
record, subject to the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes. In May, I 
led a bipartisan congressional delegation to Afghanistan and 
was honored to spend some time with our brave heroes in the 
armed forces who continue to sacrifice their own safety to 
protect our freedoms.
    As the administration's deadline to finalize the Bilateral 
Security Agreement, also known as the
    BSA, with the Afghan Government approaches, it is becoming 
clear that there are still obstacles to overcome. It is vitally 
important that the BSA adequately addresses the safety and well 
being of our brave men and women who will remain in Afghanistan 
after 2014.
    However, if a BSA is finalized that addresses all of our 
concerns, we must ensure that an adequate number of U.S. forces 
will stay in Afghanistan to help fight extremist elements and 
train and advise the Afghan National Security Forces.
    Listening to the counsel and advice of our generals on the 
ground regarding troop numbers is crucial to maintaining the 
gains we have made over the last decade. We cannot let politics 
get in the way of our national security and stability in this 
volatile region. We may not be leaving in place enough of a 
support team to fight the extremist elements who will quickly 
move to take power away from the Afghan people.
    I remain highly skeptical of the Afghan security forces' 
ability, political will, and commitment to fight jihadists on 
their own. Last week an Afghan Special Forces Commander 
defected to an insurgent group allied with the Taliban, taking 
with him most of his unit's guns, ammo, high tech equipment, 
packed in a Humvee.
    We cannot risk allowing the Taliban to retake control of 
Afghanistan, reversing the significant progress made by our 
heroes in uniform. This will also lead to al-Qaeda regrouping 
and stepping up terrorist activities using the safe havens in 
Pakistan as a staging ground, posing a real danger to our 
national security interests and those of our allies in the 
region.
    A major test of the stability of a post-2014 Afghanistan 
will be the upcoming elections in April 2014. In Afghanistan, I 
urged President Karzai to commit to the electoral process and 
ensure that a free, fair, and transparent election will result 
in a peaceful transition of power through a democratic process. 
The 2009 election was marred in controversy, as corruption and 
fraud were widespread and rampant. Another fraud-plagued 
election this spring could severely jeopardize Afghan security, 
and put our own forces at risk. With a new government, I hope 
we will be able to tackle the endemic corruption that has 
plagued the Afghan Government and hampered substantial 
progress.
    One reason for the massive corruption problems in 
Afghanistan stems from narcotics. Our codel pressed the Afghan 
Government to do more to counter narcotics operations and 
eradication efforts. During the last poppy season, it is 
disappointing that the Afghan Government wasn't willing to 
provide security for the eradication teams. Combating the nexus 
between terrorism financing and narcotics trafficking is vital 
to stabilizing the security situation in Afghanistan so that 
terrorist organizations cannot finance their illicit 
operations.
    And let us look at Pakistan's role on the security 
situation in Afghanistan. For Afghanistan to achieve security 
and stability, Pakistan is going to have to play a stronger and 
more positive role. Extremist groups like the Taliban, al-Qaeda 
and the Haqqani Network have used areas in the Pakistan border 
as insurgent sanctuaries to conduct militant operations inside 
Afghanistan without much resistance from the Pakistani 
intelligence and military forces, if not outright 
collaboration.
    Because Pakistan is vital in establishing stability in the 
region, we must work with the government. But we mustn't 
continue to give billions of dollars in aid to Pakistan and 
hope, and pray, and wish that the Prime Minister will work with 
us. We must ensure that Pakistan is meeting certain benchmarks 
in its fight against these insurgent sanctuaries within its 
borders, or else Pakistan should not receive further U.S. 
funding.
    And with that, I will conclude my remarks and turn to the 
ranking member, Mr. Deutch, and then Mr. Chabot and Mr. 
Faleomavaega.
    Thank you, Ted.
    Mr. Deutch. Thank you, Madam Chairman. And thanks to our 
witnesses for testifying today on the future of Afghanistan as 
the U.S. continues its responsible drawdown of troops.
    Like many of my colleagues, I recognize that ending 12 
years of war in Afghanistan raises many difficult challenges 
that have no easy solutions. But I am deeply committed to 
bringing our troops home as quickly and as responsibly as 
possible. Our country is tired of war. More than 2\1/2\ million 
American men and women have served our country in Afghanistan 
and in Iraq. Tragically, in Afghanistan alone, there have been 
more than 2,200 American casualties. We will never forget these 
tragic deaths, as well as the crippling injuries that so many 
of our bravest have suffered.
    This war must end for financial reasons as well. Given that 
the United States Government now spends about $2.1 million per 
year per soldier deployed in Afghanistan, an unending presence 
in Afghanistan is not in our best interest. However, we must 
act to protect our national security. Allowing Afghanistan to 
devolve back into a safe haven for al-Qaeda threatens U.S. 
national security.
    Furthermore, we have a moral obligation to ensure that 
progress that has been made with regard to human rights, 
health, and personal freedoms in Afghanistan continues, even 
without a sizable American military presence. For example, a 
recent report found that a USAID health program has saved the 
lives of 100,000 Afghan children per year. When considering the 
staggering statistics, it is essential we remember the impact 
that even one life can have on the world.
    Although I wish it was under different circumstances, 
everyone in the world is now familiar with Malala Yousafzai and 
her courageous stance against the Taliban to advance the 
universal rights of equality in education. She is an 
inspiration and a reminder that we need to give every child, 
including those from Afghanistan, the education necessary for a 
brighter future.
    So how do we responsibly ensure that Afghan security and 
our national security without committing to an unending 
American presence? How do we ensure our moral commitment to the 
Afghan people without risking more American lives? There are 
those who believe that the only way to achieve a stable 
Afghanistan is through an unending American military presence 
on the ground. However, as former U.S. Ambassador to 
Afghanistan, General Eikenberry has pointed out, no amount of 
troops can make our political and military strategies succeed 
if we do not have the full support of Afghani leadership.
    Others have advocated for the immediate withdrawal of every 
last American troop and all resources. However, this, too, is 
not a realistic option. Leaving an on-going war totally on an 
Afghan Government that cannot afford its own security service 
threatens our national security as it could very well lead to 
the re-emergence of terrorist safe havens inside Afghanistan 
and severely jeopardize the humanitarian gains that have been 
accomplished.
    Some have advocated for a negotiated political solution 
with the Taliban. And while this should be explored, it cannot 
come at the expense of human rights and equality. At this 
juncture, it remains unclear whether the Taliban is even 
serious about negotiations or wants to be an on-going force for 
division in Afghanistan's future.
    Therefore, in a world where we have only bad choices, I 
believe that the best option is for Congress to continue to 
support the Afghan National Security Forces and the 
administration's drawdown strategy while remaining cautiously 
hopeful that reconciliation efforts between the Afghan 
Government and the Taliban are able to resume.
    In June, the Security Forces officially took the lead role 
in securing the country and is now exclusively patrolling 
Afghan villages. While it is not able to operate independently, 
it is improving. It has shown it is capable and is undoubtedly 
the future of Afghanistan's security.
    At the same time, we need to finalize the Bilateral 
Security Agreement with the Government of Afghanistan that 
provides U.S. personnel with necessary protections so that 
American and NATO forces are able to continue to train, to 
assist, and to advise Afghan Security Forces.
    Ultimately, for any of this to succeed, the Afghan 
Government must become more accountable for its future. If 
Afghanistan is going to progress as a sustainable democracy, a 
good point of measure will be the country's April 2014 
elections. These elections cannot be marred with the widespread 
fraud of 2009 and the next Afghan President must protect the 
human rights conventions in the constitution and provide 
Afghans with a leader that they ultimately will believe in.
    A stable Afghanistan will require continued patience and 
some level of resources from Congress. Achieving strategic 
objections in Afghanistan is never going to be quick or easy, 
but we owe it to the Americans and Afghans who have sacrificed 
so much to try to get this right.
    I appreciate the witnesses being here today and I look 
forward to our discussion. I yield back.
    Ms. Chabot. Thank you very much, Mr. Deutch. And I also 
want to thank Chairman Ros-Lehtinen for calling this important 
joint hearing this morning or excuse me, this afternoon, with 
the Subcommittee on Asia and the Pacific. I am pleased to join 
her efforts to discuss the current situation in Afghanistan and 
Pakistan in that region and how the United States' 2014 
withdrawal from Afghanistan might impact the broader region.
    Earlier this year, the picture of the U.S. withdrawal from 
Afghanistan remained largely unclear, but it was clear that 
expediting the withdrawal plan was strategically risky to the 
stability and security interest of South Asia more broadly. The 
departure of 34,000 U.S. troops by February 2014 still raises 
the prospect that the security situation may take a wrong turn, 
especially due to Afghanistan's weak and corrupt governance. 
This is an issue that should be of particular concern 
considering that Afghanistan prepares for national elections in 
April 2014 which is not that far away. Even 6 months out, there 
is consensus that the election process will be filled with 
political pressures from Karzai, vote rigging, and practices 
not representative of a democratic system.
    There are few signs Karzai's government learned the lessons 
from Afghanistan's past elections. He took control of the 
independent election commission and appointed new commissioners 
who will no doubt show preference toward his alliances and 
acolytes. There is little disagreement that the structure of 
Afghanistan's Government is itself a major problem, but how we 
help move it toward a more democratic, fair, and incorrupt 
system at this point is a difficult matter.
    In the coming months, Afghanistan's mounting internal 
political uncertainties cannot be brushed off. The political 
power struggle that will no doubt consume the Presidential 
campaign season in Afghanistan may also threaten to unravel 
negotiations to finalize the Bilateral Security Agreement with 
the U.S. And to no one's surprise, the likelihood that the U.S. 
and Afghanistan will finalize the BSA before the end of the 
year faces some major obstacles.
    It is important that the final agreement adequately 
safeguards our troops which, as of earlier this month, is the 
primary issue still on the table. Failure to reach an agreement 
would threaten U.S. gains in Afghanistan and impair our 
commitments to the broader region. But let us not forget that 
the outcome of the BSA is not the only issue influencing U.S. 
withdrawal plans. Long-term stability in Afghanistan, political 
reconciliation, and a successful U.S. military drawdown is 
contingent upon Pakistani cooperation. Since the election of 
Prime Minister Sharif earlier this year, U.S.-Pakistan 
relations are showing some signs of improving as illustrated by 
Sharif's visit to Washington just last week and the Obama 
administration's decision to release more than $1.6 billion in 
military and economic aid to Pakistan.
    Suspicions between the U.S. and Pakistan still linger 
despite marginal recent advances. Newly elected Sharif is 
linked to sectarian extremist groups in Punjab and his past 
support of the Afghan Taliban may well influence his policies 
in the upcoming months to the detriment of Pakistan's neighbors 
and U.S. security informed policy interests. Islamabad's desire 
in maintaining an indispensable position in Afghan peace talks 
while obstructing its neighbor India is paramount. I find it 
increasingly difficult to justify the administration's decision 
to release the $1.6 billion in military and economic aid and 
having spoken to my colleagues on the Hill, many of them share 
those same concerns. My concern regarding this level of 
assistance is amplified by Pakistan's widespread persecution of 
religious minorities, particularly the Christian communities.
    Pakistan is ranked among the most religiously intolerant 
countries in the world and this level of intolerance, 
unfortunately, seems to be increasing. A Pakistani adhering to 
anything but Suni Islam finds himself the target of 
discrimination, overt persecution, and potential terrorist 
attacks. For example, in September 22nd, a suicide bombing of 
the All Saints Church in Peshwar, left over 130 Christians 
killed and over 150 injured. And earlier this month, extremists 
beat two Christians in Islamabad after they refused to convert 
from Christianity to Islam.
    While this is a problem we see happening throughout the 
region, the level of oppression existing in Pakistan is 
particularly aggressive. It is my hope that Prime Minister 
Sharif addresses this problem and reforms Pakistan's blasphemy 
laws, laws that terrorists use as an excuse to attack Christian 
churches, burn their settlements, and commit murder in 
Christian communities.
    I urge Prime Minister Sharif to include the protection of 
religious minorities as part of his new security strategy and I 
urge the Obama administration to make Pakistan's progress on 
this particular issue, among others, a qualification for 
receiving U.S. assistance.
    I again want to thank Chairwoman Ros-Lehtinen for calling 
this hearing and we look forward to hearing testimony from our 
distinguished panel of witnesses and it is truly a 
distinguished panel this afternoon. I will turn it back over to 
Chairwoman Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Steve. Thank you.
    And now we are pleased to welcome our distinguished 
panelists. First, we welcome Dr. Frederick Kagan, who holds the 
Christopher DeMuth chair and is the Director of the Critical 
Threats Project at the American Enterprise Institute. Dr. Kagan 
has served in Afghanistan as part of General Stanley 
McChrystal's Strategic Assessment Team and also conducted 
research there for Generals David Petraeus and John Allen. For 
his work in Afghanistan, he received the distinguished Public 
Service Award, the highest honor given to a civilian who does 
not work for the Department of Defense and he gets the Great 
Witness Award from our subcommittee for always being available. 
Thank you.
    Next we welcome General Jack Keane, who is chairman of the 
Institute for the Study of War. In 2005, General Keane retired 
from the U.S. Army as Vice Chief of Staff after 37 years in 
public service and during this time he provided strategy and 
oversight for the wars in Afghanistan and Iraq. He is a career 
paratrooper and like my hubby, he is a decorated combat veteran 
of Vietnam, who has served in operational command roles 
throughout the world including in Somalia, Haiti, Bosnia, and 
Kosovo. The General is also a member of the Secretary of 
Defense's Policy Board and an advisor to two foundations that 
assist veterans. Thank you, sir.
    Third, we welcome Ms. Lisa Curtis, who is a senior research 
fellow for South Asia at The Heritage Foundation. Prior to 
this, she served as a staff member at the Senate Foreign 
Relations Committee, handling the South Asia Portfolio for then 
Chairman Richard Lugar and from 2001 to '03, she served as an 
advisor on India-Pakistan relations to the Assistant Secretary 
of State. Ms. Curtis also served as a South Asia policy analyst 
at the CIA and before this was stationed in U.S. Embassies in 
Islamabad and New Delhi as a foreign service officer. We 
welcome you, Ms. Curtis. Thank you.
    And finally, we welcome Dr. Stephen Biddle. Thank you, sir, 
who is an adjunct senior fellow for defense policy at the 
Council on Foreign Relations and professor of political science 
and international affairs at George Washington University. 
Prior to joining George Washington, Dr. Biddle taught at the 
U.S. Army War College Strategic Studies Institute and served at 
the Defense Policy Board and also advised Generals Petraeus and 
McChrystal in Afghanistan and Iraq.
    Indeed a distinguished set of panelists and we will begin 
with you, Dr. Kagan.

  STATEMENT OF FREDERICK W. KAGAN, PH.D., CHRISTOPHER DEMUTH 
    CHAIR AND DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN 
        ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH

    Mr. Kagan. Thank you, Madam Chair, Ranking Member, it is an 
honor to be in front of this committee, talking about this 
important topic and I thank you very much for convening 
hearings at this time when so much else is going on to focus on 
an issue that I think hasn't received as much attention as it 
should, given what the stakes are in so many ways.
    Reasonable people can disagree about the desirability of 
committing to a long-term relationship with Afghanistan, 
keeping American troops there, giving large amounts of 
financial aid to Pakistan and many other specific policy 
decisions in South Asia. We can argue about the relative 
importance of U.S. interests in that area compared with the 
cost of taking this with that action and also compared with the 
cost of inaction or withdrawal. And we can certainly argue and 
I and many in this room have been part of arguments, about what 
strategies might work or might not work.
    But all of these discussions and arguments should be based 
on a common set of facts that are not really arguable. American 
national security requires defeating al-Qaeda and all other 
affiliated groups that seek to kill Americans, working with 
local partners to prevent those groups from maintaining or 
reestablishing safe havens from which to do so and retaining 
the ability to take direct action against those groups, if and 
when required. It is also a fact that the war in Afghanistan is 
not yet either won or lost and it can still go either way. A 
more inconvenient fact is that the Afghan National Security 
Forces will not be ready to secure their government or their 
territory without significant U.S. and international support, 
including military forces and denablers after 2014.
    A still more unpleasant fact is that Pakistan continues to 
harbor, shelter, and support some of the most virulent 
insurgents and terrorist groups closely associated with al-
Qaeda including serving as haven for some that have already 
tried to attack the U.S. homeland.
    Yet, it is also a fact that Pakistan is a country of some 
190 million people with perhaps 100 nuclear weapons and the 
deepest hatred for the U.S. of any nation on earth. Pakistan is 
also, moreover, perennially on the verge of complete economic 
collapse that would lead to political collapse and consequently 
very likely a massive increase in the number of terrorist 
groups operating there. In the very worst case, one or more of 
those terrorist groups might get control of a Pakistani nuclear 
weapon and use it or at least try to use it against India, the 
U.S., or another of our allies.
    The most distressing fact of all is that there is no single 
clear policy or strategy that could reliably handle all of 
these other facts. And that offering simplistic solutions or 
focusing on one of these problems to the exclusion of the 
others will simply lead rapidly to failure.
    International Afghan forces have made tremendous gains 
against the Taliban in the past 4 years, largely sweeping them 
out of Kandahar of which they have nearly gained control in 
2009, driving them to the fringes of Helmand, securing the 
Konar River Valley to Asadabad and most strategically vital, 
Nangahar Province, and preventing the enemy from sustaining 
significant bases in other parts of the country.
    Isolated spectacular attacks in Herat and Kabul and 
elsewhere have not disrupted Afghan politics nor significantly 
affected the daily lives of most Afghans. Tragic instances of 
Afghan forces or Taliban masquerading as Afghan forces 
attacking NATO and U.S. troops have not destroyed the 
cooperation or cohesion of the coalition. Many seasons of tough 
fighting have not seen the erosion of the ANSF, but rather have 
seen it improve in strength size, skill, and determination.
    But President Obama ordered reductions in U.S. forces 
prematurely, preventing them from completing critical clearing 
operations in southeastern Afghanistan where the Haqqani 
network operates from sanctuaries in Pakistan. Haqqani forces 
and their allies retain important safe havens in Ghazni, Logar, 
Wardak, Paktia, Paktika, and Khost Provinces and neither the 
U.S. nor the ANSF have the resources needed to clear them out 
at this point.
    On the contrary, we can expect to see an increase in 
Haqqani network activity over the coming months and years, 
including both spectacular attacks in Kabul and a regular 
drumbeat of attacks against U.S. and ANSF positions in the 
Haqqani areas. The ANSF will not be able to defend itself 
against this threat on its own after 2014. It lacks the 
intelligence, surveillance, and reconnaissance assets that the 
U.S. and NATO provide which give it a decisive advantage over 
its enemies. It does not have enough artillery or skill in 
using it to overmarch the enemy, nor will it have enough of its 
own combat air power to do so. A full U.S. withdrawal would 
very likely be followed by the collapse of ANSF forces facing 
the Haqqanis that would be very bad for the U.S.
    The obvious rejoinder to these comments is that, of course, 
I am talking about bases in Pakistan and that the problem 
really is in Pakistan and not in Afghanistan at this point. And 
the bottom line take away that I would offer to the 
subcommittees is that you should not imagine that we can solve 
this problem on one side of the Durand Line only. Losing in 
Afghanistan, yielding the gains that we have made so far, 
failing to complete efforts to defeat the enemy, to deprive 
them of safe havens in Afghanistan will make it impossible to 
succeed on the other side of the Durand Line just as succeeding 
in Pakistan is not in and of itself sufficient to achieve 
success in Afghanistan.
    And so despite all of the displeasure, all of the obvious 
distastefulness of providing support on such a large scale to a 
regime in Islamabad that is so clearly harboring our enemies 
and so clearly failing even to provide adequately for its 
people, nevertheless, there are important strategic reasons to 
continue to do so having to do with the complexity, 
unfortunately, of any sound strategy that might conceivably 
work to achieve American security in this region. Thank you.
    [The prepared statement of Mr. Kagan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Dr. Kagan.
    General?

STATEMENT OF GENERAL JACK KEANE, USA, RETIRED, CHAIRMAN OF THE 
             BOARD, INSTITUTE FOR THE STUDY OF WAR

    General Keane. Madam Chairman and Ranking Minority and 
distinguished members of the committee, thank you for inviting 
me. I haven't been back to foreign affairs until September 
2007, just prior to Dave Petraeus doing it. Some of you may 
have been there. You had a joint committee meeting in a room 
much larger than this and I think there was somewhere in the 
neighborhood of 70 of you there. And myself and Bill Perry went 
through 5 hours of questioning. I really appreciate the 
seriousness of what you are about here. I know this is the 
second hearing that you have had, the first one dealing with 
the Bilateral Security Agreement.
    This is my third hearing on Afghanistan. Your colleagues in 
the House Armed Services Committee have been about this task as 
well. So I truly appreciate what the House is trying to do in 
educating and informing itself so it can influence some policy 
direction.
    Let me correct the record. I am a Vietnam veteran, but I 
was not in Bosnia-Herzegovina and Haiti. My troops were and I 
had left the Defense Policy Board after 9 years. I thought 
providing advice to three Secretaries was sufficient and 
probably about wearing my welcome out in terms of advice, so I 
walked away.
    Ms. Ros-Lehtinen. You are always welcome here.
    General Keane. I walked away from the fourth opportunity.
    Obviously, the decisions we are going to make in the next 6 
to 12 months are going to have profound impact on Afghanistan 
and the region as a whole. And certainly a stable and secure 
Afghanistan, free of radical Islamist sanctuaries, free of 
radical Islamists is in the U.S. national interest to be sure 
and something we are trying to achieve.
    What is key to achieving that is, in fact, U.S. commitment 
and resolve and U.S. leadership. It is not about cutting our 
losses. It is about not squandering the gains and the results 
that we have achieved. The United States and Afghanistan have 
got a written strategic agreement right now which is a long-
term strategic relationship between both nations for mutual 
benefit. I am reminded, we had a similar agreement in Iraq. It 
was called the Strategic Framework Agreement. In my judgment, 
it was not honored. We pulled away from Iraq. Iran gained 
influence and al-Qaeda reasserted itself as we can see today.
    At issue at the time was a place we are in now. We are 
arguing over the status of forces agreement. It is a 
misrepresentation of what took place to say that the reason 
there are no forces in Iraq is because we could not get an 
agreement over immunity. Maliki only offered that as a face-
saving device because the forces we put on the table, personal 
envoy to the President of the United States was 10,000, 
virtually 60 percent less than what the military commander had 
recommended. Maliki, a nefarious character to be sure, knew 
that wasn't a serious proposal and tried to find a way out of 
it. We cannot make that mistake again here.
    We need military presence post-2014. We also need a 
determined, aggressive, diplomatic and political engagement for 
years to come. And we have to help a fledgling democracy 
mature. We have huge experience in this area and we can help 
them. They certainly have huge problems as we all know and has 
been born out of the last 12 years. We have got to assist 
Afghanistan to move from a donor economy to a self-sustaining 
economy focused around mining, agriculture, and a 
transportation hub and some of that is clearly now on the 
horizon. We know how to do this. We have done this in Germany, 
Italy, Japan, post-World War II, South Korea, Bosnia-
Herzegovina, Kosovo, just to name a few and the list is long. 
We have had some problems as well with other countries.
    The central issue facing Afghanistan post 2014 is managing 
the security risk. Three key decisions to mitigate that risk: 
Funding the ANSF right now through 2015 at 352,000. We have got 
to keep that funding through 2020. If we draw down the ANSF on 
the heels of the NATO-U.S. drawdown it absolutely makes no 
sense operationally and tactically and we might as well 
underscore failure if we permit that to happen. And we are 
actually arguing over what? Two or three billion dollars a year 
for 5 years? Given what we spent in this government, that is 
what we are arguing over between 352,000 versus 200,000 and 
something? That makes no sense to me whatsoever and it borders 
on irresponsibility if we go down that road.
    The second thing is the residual force and you spent a lot 
of time on it. I won't. The force is essential. It is the glue 
that will bind the United States, Afghanistan, and 
international community relationship during the critical 
transition years; largely noncombat except for counterterrorism 
missions. If it is too small and cannot perform the required 
mission, the risk will go up exponentially. Must be 
counterterrorism. Must be training assistance. And must be 
enablers.
    The third thing is sanctuaries. My dear friend, Fred Kagan, 
mentioned it. This is a huge problem for us. The south is 
relatively stable. The east, some parts of it are, as you go 
toward the Pak border, it is not. The Haqqani network 
dominates. We were never able to put in place the surge forces 
in the east that we were able to do in the south. Why? We 
prematurely withdrew those forces over the objections of 
General Petraeus. So we never had the force application. As a 
result of that, they still dominate there.
    My recommendation to mitigate that risk is to permit 
targeting of the Haqqani network in those sanctuaries in 
Pakistan. And then you bring down Haqqani's operational network 
and certainly raise the morale of the ANSF forces to the point 
where they think they have a chance.
    Some relationship to Pakistan because you included it in 
this and just let me very quickly say this is a regime that is 
dominated by its military who puts its military self above the 
state. We have got a weak civilian government, fundamentally 
corrupt. The economy is in the tank. We have got a raging 
insurgency. We have got an escalating nuclear power. They 
support terror operations in India with terrorist 
organizations. They support the Haqqani network and the Taliban 
in conducting operations against the United States and NATO and 
Afghanistan. They have got blood all over their hands with the 
casualties, Ranking Minority Member, that you mentioned.
    [The prepared statement of General Keane follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, General. Thank you so much for 
your testimony.
    General Keane. Sorry I ran longer than you wanted.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Curtis. Thank you very much, you are next.

  STATEMENT OF MS. LISA CURTIS, SENIOR RESEARCH FELLOW, ASIAN 
            STUDIES CENTER, THE HERITAGE FOUNDATION

    Ms. Curtis. Madam Chairwoman, Chairman Chabot, and Ranking 
Member Deutch, thank you very much for inviting me here today 
to share my views on Pakistan and its role in Afghanistan.
    The election of Pakistani Prime Minister Nawaz Sharif does 
provide an opportunity for the U.S. to forge a more effective 
partnership with Pakistan albeit on a limited set of issues 
including social and economic development. Washington and 
Islamabad are seeking to revive these ties following a series 
of shocks to the relationship, particularly in 2011 including 
the U.S. raid on Osama bin Laden's compound in Abbottabad and 
an accidental NATO strike on the border with Afghanistan and 
Pakistan that killed 24 Pakistani soldiers later that year.
    Now Pakistan's reopening of the ground lines of 
communication in the summer of 2012 and the U.S. reinstatement 
of coalition support funding for Pakistan in December of that 
year did mark the beginning of a rapprochement between our two 
countries and this culminated in last week's visit of Nawaz 
Sharif to Washington during which the administration resumed 
$1.6 billion in economic and military assistance. Now the 
mutual good will that was generated by the Obama-Sharif meeting 
was welcome, but it should not mask the fact that each side 
remains deeply distrustful of the other.
    Pakistan is home to a variety of terrorist groups that keep 
the region unstable and contribute to the spread of global 
terrorism. The Pakistani military's policies toward the Afghan 
Taliban and terrorist groups like the Haqqani network and the 
Lashkar-e Tayyiba have remained largely unchanged over the last 
12 years, despite U.S. pressure and $27 billion in aid.
    Pakistan's military maintains a short-term tactical 
approach of fighting some terrorist groups deemed to be a 
threat to the state, while supporting others that are aligned 
with Pakistan's goal of curbing Indian regional influence. The 
recent release of Taliban leader Mullah Abdul Ghani Baradar 
from a Pakistani jail is a potentially positive step for Afghan 
reconciliation efforts. Afghan leaders have praised the release 
of this pro-talks leader but say Baradar remains under the 
supervision of Pakistan's intelligence agencies. But it is 
unclear to what degree other Taliban leaders believe the group 
should engage in talks while U.S. and NATO forces are 
departing. There is skepticism among experts, including myself, 
about the Taliban's sincerity in the negotiating process. The 
insurgents have stepped up their attacks and they appear 
confident that time is on their side.
    While Pakistan has been helpful in facilitating travel of 
Afghan Taliban leaders to meetings in third countries, there 
are no signs that Pakistan has pressured the Taliban leadership 
or Haqqani network to compromise for peace. For reconciliation 
talks to succeed, the Taliban and Haqqani network would have to 
come under more pressure in Pakistan. Pakistan's inconsistent 
policies toward terrorism certainly pose a threat to U.S. 
national security interests. But cutting off relationships with 
Pakistan altogether would be a risky option. The U.S. instead 
should pursue policies that build up the economy and support 
Pakistani civil society while conditioning military assistance 
on Pakistan's cooperation with U.S. counterterrorism goals.
    There is recognition among some Pakistan civilian leaders 
that a Taliban-dominated Afghanistan would likely have a 
destabilizing effect on Pakistan and unless Islamabad uses its 
resources now to convince the Taliban to compromise in 
Afghanistan, Pakistan will suffer from an emboldened Taliban 
leadership that will project its power back across the border 
into Pakistan. But despite the frustration with Pakistan's 
approach, the U.S. should persist in using the tools that it 
has to try to shape Pakistani decision making in a more helpful 
direction.
    Number one, the U.S. should strictly condition military aid 
to Pakistan. In the last year, the Obama administration has 
exercised its waiver authority on two occasions to provide 
military aid to Pakistan. If the administration continues to 
rely on its waiver authority, it will undermine its ability to 
influence Pakistani terrorism policies.
    Number two, as my colleagues have also testified, we should 
maintain a robust, residual force presence in Afghanistan post-
2014 and commit to funding the ANSF for several more years.
    Third, we should foster U.S.-Pakistan civil society 
dialogue. There are many Pakistani citizens working to reverse 
extremist trends in the society. There is a need for the U.S. 
to bolster these forces through civil society engagement and 
here I would point to an initiative that I believe the U.S. 
should get behind which is the U.S.-Pakistan Leadership Forum 
which is a forum that brings together American and Pakistani 
civil society and private sector leaders to cooperate in areas 
like media, the arts, education, business, and agriculture.
    Lastly, it is important for the U.S. to encourage Indo-
Pakistani dialogue. The two countries made significant progress 
in their peace talks from the period of 2004 to 2007 and the 
U.S. should encourage both countries to get back to those terms 
of talks. The U.S. should not seek to restrict India's 
diplomatic and economic involvement in Afghanistan to appease 
Pakistan. India has an important role to play in encouraging 
democratic institution building and economic development in 
Afghanistan and it shares our objective of preventing 
terrorists from reestablishing bases in the country. Thank you 
very much.
    [The prepared statement of Ms. Curtis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Ms. Curtis.
    Dr. Biddle.

 STATEMENT OF STEPHEN BIDDLE, PH.D., ADJUNCT SENIOR FELLOW FOR 
          DEFENSE POLICY, COUNCIL ON FOREIGN RELATIONS

    Mr. Biddle. Thank you, Madam Chairwoman, and thanks to the 
committee for the opportunity to speak with you on these 
important national issues.
    The Afghanistan debate often focuses on the immediate and 
that is understandable. Certainly, there are lots of important 
short-term challenges to overcome from the need to negotiate a 
Bilateral Security Agreement to the need to hold acceptable 
Afghan elections in the spring, to the need for a successful 
transition to Afghan security responsibility by the end of 
2014. But as important as these issues are, they tend to 
overlook a question of larger, ultimate importance which is not 
how we get to a successful transition, but how we get from a 
successful transition to an actual end to the war that can 
realize the interests for which we now wage that war. We need 
to avoid losing focus on what David Petraeus famously asked in 
his question, ``Tell me how this ends?''
    And if current trends continue, when U.S. counterinsurgent 
combat troops withdraw, they are likely to leave behind a 
stalemated war in 2014. The Taliban is unlikely to be able to 
defeat the Afghan National Security Forces or the ANSF as they 
are sometimes called, or take major urban centers such as Kabul 
or Kandahar, but I think the ANSF is also unlikely to be able 
to drive the Taliban from their remaining strongholds, 
especially in the countries east, and the Taliban are unlikely 
to surrender or stop fighting, simply because they can't break 
rivals' hold on major urban areas or because foreign combat 
troops have left.
    In fact, the Taliban are likely to remain militarily viable 
for the foreseeable future. If so, the result would then be 
deadlock in which neither side can prevail, not the Taliban, 
but also not the ANSF. The ANSF can probably sustain the 
stalemate indefinitely, but only as long as the U.S. Congress 
pays the annual bills needed to keep the ANSF in the field and 
fighting. The war will then become a contest in stamina between 
the U.S. Congress and the Taliban. For the ANSF to win this 
contest outright would require either that the Congress be more 
patient than the Taliban or that the Taliban prove less 
resilient in the next decade than they have been in the last.
    But if the ANSF isn't going to win the war outright, that 
leaves only two plausible long-term outcomes to the conflict. 
One is a negotiated settlement with the Taliban, at some point, 
whether near or distant. The other is defeat for the Afghan 
Government. Of course, this body will determine to an important 
degree via its decisions on funding Afghan National Security 
Forces whether the ANSF can, in fact, outlast the Taliban.
    What I would like to do with the balance of my time this 
afternoon is to sketch briefly one of the two plausible 
alternatives to that end game, a negotiated settlement, be it 
near term or be it more distant, what that might look like and 
what it would require of us.
    My written testimony goes into these questions in some 
detail. For now, I will just make two points. The first is the 
plausible terms of an eventual settlement, if it is possible at 
all and it may not be, would presumably involve the Taliban 
agreeing to break with al-Qaeda, forego violence, disarm and 
accept something like the current Afghan constitution. In 
exchange, they would get legal status as a political actor 
within Afghanistan, some set of offices or parliamentary seats 
or ministries, and the withdrawal of any remaining foreign 
forces. This would obviously be no panacea. The Taliban are an 
abhorrent group with the blood of thousands of innocent Afghans 
and American soldiers on their hands and they represent an 
ideology contrary to deeply held American values. Settlement 
with them represents at best a least bad option. But a deal 
along these lines would nevertheless be preferenced to outright 
defeat and properly structured could preserve the two core 
interests at the heart of the U.S. war effort, that Afghanistan 
not become a base by which militants could strike the United 
States or our allies in the west and that Afghanistan not 
become a base for destabilizing its neighbors, including 
Pakistan.
    The second point I want to make is that if a negotiated 
settlement is going to be ultimately the way this war ends, and 
if we are serious about ensuring that its terms secure the 
interests for which we are now waging the war, then there are 
things we need to do starting now to lay the ground work. This 
includes, of course, funding the ANSF long enough to enable the 
talks to reach fruition which will be a long process of years 
at best, but it also includes real governance reform of a kind 
that we have not been willing to pursue seriously heretofore.
    Any plausible deal that ends this war will legalize the 
Taliban as a political actor and provide them some sort of a 
foothold in Afghan politics. The only way to keep the terms of 
any such deal sustainable and to limit the subsequent influence 
of the Taliban is via domestic political competition within 
Afghanistan from a viable non-Taliban alternative. The existing 
political establishment in Kabul is unable to provide this and 
is unlikely to change simply because we asked them to.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Biddle. Real change of a kind that could make an 
eventual settlement sustainable will require credible 
conditionality and the longer we wait to do this the harder it 
will get.
    [The prepared statement of Mr. Biddle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Thanks so much to Dr. Biddle.
    Thank you to all of our panelists. I will begin the 
questions.
    There is no short-term solution, no policy decision that 
Congress or the administration can make to win the war and see 
stability and democracy flourish in Afghanistan in the 
foreseeable future and certainly not before 2015. But there are 
decisions that we can make or not make that would jeopardize 
our efforts in Afghanistan and risk eliminating the gains we 
have made during the past 12 years.
    The first obstacle is ensuring that the Bilateral Security 
Agreement is finalized and that it includes immunity for U.S. 
personnel from persecution under Afghan law. The administration 
has indicated that without this it would pull out of 
Afghanistan completely, leaving the zero option on the table. 
Putting aside the immunity issue, what are the key features the 
BSA will need to include in order for us to ensure that we are 
able to maintain the gains made while protecting U.S. troops 
and personnel? That is number one.
    Another major obstacle is the size of the residual force in 
post-2014 Afghanistan.
    General, you testified that based on the scope, size, and 
difficulty of the post-2014 mission, the residual U.S. force 
should be about 20,000.
    And Dr. Kagan, you didn't put a number on it, but you 
testified that the Afghan National Security Forces would not be 
ready to secure their territory without significant U.S. and 
international support which includes military forces.
    Ms. Curtis, you stated that the U.S. must maintain a robust 
residual force.
    We have heard that the administration could set its numbers 
at less than 10,000 and it was reported that NATO is planning 
on a smaller residual force than we first thought. What are the 
dangers of leaving behind a smaller force that has been 
recommended? Insurgents generate over $100 million a year in 
illegal drug trade and that is with troop levels at a much 
higher number than is currently been floated. How will the 
reduced numbers impact other operations that are critical to 
our mission in Afghanistan like counternarcotics?
    And finally, at times our President has laid out the 
narrative that al-Qaeda has been decimated and nearly defeated. 
With so much of a threat still remaining in Afghanistan, 
Pakistan region, should we underestimate al-Qaeda's strength 
and is that believed to be setting the U.S. for failure in a 
post-2014 Afghanistan?
    Dr. Kagan, we will start with you, quickly.
    Mr. Kagan. Yes, I think al-Qaeda is not decimated and 
actually if you look at maps as our team has provided of al-
Qaeda area of operations around the world, it controls more 
territory, has more fighters and poses a greater threat to the 
United States today than it ever has. Giving it back its 
sanctuary in Afghanistan would be a crowning glory for al-Qaeda 
and would be extremely dangerous for the U.S.
    Please hear me very carefully because I don't want to have 
numbers taken out of context. My personal assessment of the 
forces required after 2014 to do the missions that are being 
described is upwards of 30,000. That has not been on the table 
for a long time. I agree with General Keane that with 20,000 at 
very high risk and with a great deal of difficulty, it is 
feasible. When you get down below 10,000, a lot of missions 
fall off. We will not be doing counternarcotics. We will not be 
doing counterinsurgency and our ability to train, advise, and 
assist will be extremely limited.
    Ms. Ros-Lehtinen. Thank you, Dr. Kagan.
    General? Punch your button for the mic.
    General Keane. I agree with Dr. Kagan about al-Qaeda. It is 
on the rise and there is a lot of misunderstanding about them. 
They are not morphing into something else. Their plan was 
always to decentralize, establish a caliphate in a region by 
gaining operational and territorial control in the various 
countries that they want to control and that is absolutely 
happening before our eyes. So let us be clear about it.
    In terms of size of residual force, it is about the 
missions which must be performed that drives the size of the 
force. And those are counterterrorism, training assistance, and 
also the enablers that the force requires.
    The optimal size, I totally agree with Fred is 30,000, a 
minimum of that is 20,000. We can establish arbitrary numbers 
here and then what you have eventually if you get down into the 
numbers people are talking about, 10,000 and below, you have a 
residual force in name only that is not capable of performing 
assigned missions.
    Ms. Ros-Lehtinen. Thank you, and I am sorry for the other 
two, I know Ms. Curtis and Dr. Biddle were ready, but I am out 
of time and we have got a lot of folks. So we will get you 
later.
    Mr. Deutch.
    Mr. Deutch. Thanks. General, let me just continue with 
that. You say we can establish arbitrary numbers. Help me 
understand, this is the issue that we all struggle with. I am 
not a general, so when you talk about the need, both of you 
talk about the need for 30,000 is optimal, maybe 20,000, the 
administration has been talking making 10,000, maybe 6,000, all 
sorts of numbers have been thrown around. How do you 
determine--how is it that the administration can come up with a 
number that they think works with lots of generals giving their 
input into that decision for you to consider it so far off?
    General Keane. I can't speak for that analysis. Frankly, 
just when you look at the mission and you start to lay it down 
what it is, let us just take one as an example, 
counterterrorism. If you try to perform that mission from one 
location, you cannot operationally accomplish the mission. So 
in other words to go all the way to the east to take down 
Afghan, excuse me, Taliban leaders, to go all the way to the 
south to do the same as we are currently doing, you have to be 
at multiple bases. That drives up numbers. It is not just about 
special operators who kick doors down. The fact of the matter 
is they have to have drones, the crews to support them. They 
have to have helicopters which is an assault force. They need 
maintenance to support those helicopters. They need 
intelligence analysts. And they also need people to secure them 
and some logistical support as well.
    So when you lay those numbers down, you get way beyond 
10,000. Just in dealing with this one alone, I think the 
minimum force requirement on the mission I am just talking to 
you about is about 7,000.
    Mr. Deutch. And that mission is what exactly? How do you 
define the mission?
    General Keane. Excuse me?
    Mr. Deutch. How do you define the mission that we need 
30,000 troops ongoing in Afghanistan?
    General Keane. How do I define the mission for the residual 
force?
    Mr. Deutch. Yes.
    General Keane. Is to assist in the stability and security 
of Afghanistan, recognizing that we are in a transition phase 
from where we have been in the lead and the Afghan security 
forces are now on their own. They do not have the kind of 
terrorism capability that we have. They have a facsimile of it.
    The other thing, they need enablers. Just think of this. 
All the NATO forces that are in Afghanistan to this day by and 
large all receive some kind of enablers from the United States 
to be able to function effectively. How could we possibly walk 
away and not provide the Afghan National Security Forces with 
some enablers to enable them to function when they are an 
infantry-based force?
    Mr. Deutch. General, I don't think anyone is saying that 
there should be no assistance, no enablers. I would make one 
point though. When you said earlier, almost in an off-handed 
way that the discussion about troop numbers, whether it is--we 
are discussing cost and you said $2 billion, $3 billion a year 
over the course of however many years until 2020 that it is 
almost irresponsible for us to be discussing that.
    I would just make the point that here in Washington these 
days, we have debates in every one of our committees about 
where we spend money and how we spend money and what our 
priorities are. And I don't think it is irresponsible for us to 
struggle through, with all due respect, I don't think it is 
irresponsible for us to try to struggle through whether $2 
billion or $3 billion a year more in Afghanistan is something 
that we should be spending when tomorrow, the conferees are 
going to meet on the Farm Bill to talk about whether to cut 
SNAP funding by $40 billion. And on Friday, there is going to 
be a $5 billion cut in SNAP funding when the Recovery Act 
expires.
    So I don't--my problem here is we are trying to get to the 
right point here where we can, as I laid out in my opening 
statement, where we can get to an Afghanistan that can take 
care of itself, that doesn't become a breeding ground for 
terrorists again. But we can't have that debate in the absence 
of a broader debate about what our priorities are as a nation.
    So when we listen to the administration make suggestions, 
to readily dismiss a force for being too small because it 
doesn't do all that we think it should, I think is to lose 
track. And I don't blame you for this. You are looking at a 
very specific point. But for us here, as we debate these 
broader issues, at some point we have to start to balance 
whether spending that extra $3 billion a year in Afghanistan is 
more important than spending the extra $3 billion a year on 
critical needs here in this country. That is just part of the 
debate that too often is missing and I think it needs to be 
brought back in and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. Thank you.
    Mr. Chabot is recognized for his time.
    Ms. Chabot. Thank you, Madam Chair. General Keane, let me 
get back to you for just a second. If you get down to say 
10,000 or fewer U.S. troops, I have heard this and if you can 
tell me how accurate this is, you get to a point where 
basically those personnel are for the most part protecting 
itself kind of, its own force protection and things like that 
and that you can't really perform any functions outside that 
are going to be particularly helpful to U.S. interests in 
Afghanistan. Is that correct?
    General Keane. Well, certainly, I do agree with that. 
Numbers have a certain quality all of their own. And when you 
rationalize what those numbers should be it has to be on the 
tasks and the missions that are required to be accomplished by 
a residual force. If you permit the sizing of the force to be 
essentially numbers driven and not mission and task driven, 
then you are just pulling the guts out of what you are trying 
to accomplish.
    And I think if you will put arbitrary numbers on the table 
without looking at the tasks--the military can definitely 
provide task purpose and numbers assigned to that task and 
purpose. And if you are going to bring down the numbers, you 
have to understand what we are losing as a result of those 
reduction in numbers. And we should be honest with ourselves 
about that. I think it is a serious degradation and mission 
capability when you drive those numbers down like that. We 
should know what is the loss of that and not just tell those 
10,000 make do and do the best you can.
    Ms. Chabot. Thank you. Thank you, General.
    Dr. Kagan, let me turn to you, if I can. I remember the 
last time I was in Iraq it was maybe 6 months before the 
agreement with Iraq fell apart. And I remember being in various 
military briefings and talking with Iraqis and government 
leaders over there. Everybody at that point assumed that there 
would be a residual, pretty significant residual U.S. force 
there on the ground and I and many other people were ultimately 
shocked when it was just announced pretty much: We can't reach 
an agreement, everybody is coming out.
    Now when that happened, there were obviously consequences 
as a result of that. Could you touch on some of the 
consequences we have seen in Iraq? And what should that teach 
us about what we are actually talking about here with respect 
to Afghanistan which isn't too late?
    Mr. Kagan. Thank you, Congressman. The consequences in Iraq 
have been absolutely devastating. We have seen the 
reconstitution of al-Qaeda in Iraq in most of the safe havens 
from which it had been operating before the surge and 
subsequent operations cleared it out. It is now conducting car 
bomb operations at the same level as it had been in mid-2007. 
We have seen Shia sectarian militias remobilized and now some 
of them are being brought into the Iraqi security forces. We 
are seeing increased sectarian killing and of course, all of 
this is in the context of the Syrian war as well.
    If we pull out of Afghanistan, the consequences may or may 
not ensue as rapidly as they did in Iraq, but I believe that 
they will ensue very much along those lines because like the 
Iraqi security forces, the Afghan National Security Forces were 
not created, have not been established in such a way that they 
can continue to operate independently without any support.
    Ms. Chabot. Thank you. With about a little over a minute 
that I have got left, let me turn to Ms. Curtis and Dr. Biddle.
    We really haven't touched too much on India which is right 
in the region there and a key player. Could you discuss briefly 
India's role in all of this relative to the future of 
Afghanistan and Pakistan to some degree? What role have they 
played? What role would you expect them to play? And I have got 
about a minute so Ms. Curtis, maybe I will give you 30 seconds 
and Dr. Biddle, about 30.
    It is only the second most populist country on earth and 
let us talk about that for 30 seconds.
    Ms. Curtis. Can I quickly just add that when we are talking 
about troop numbers in Afghanistan, obviously that decision 
will have an impact on Pakistan, a nuclear arms state. So we 
are not just talking about the Afghanistan state, but we are 
talking about the entire region and the impact on the entire 
region.
    As far as India goes, India has played a helpful role in 
Afghanistan. They have provided assistance. They have built 
roads, power stations. They have helped support the nascent 
democratic process there. So India's goals in Afghanistan match 
those of the U.S. and not wanting the Taliban to retake the 
country. The problem is that Pakistan is paranoid about any 
role that India has in Afghanistan, even if the Indian role is 
helping with the economy, Pakistan sees any increase in 
influence that India has in Afghanistan as detrimental to 
Pakistan's interests.
    But as I said, I don't think we can play into Pakistan's 
hands and ask India to pull back from Afghanistan just to 
appease Pakistan. I think the only way to reduce the Pakistani 
paranoia is to encourage better Indo-Pakistani relations.
    Ms. Chabot. Thank you. Madam Chair, I would ask unanimous 
consent for 30 seconds for Dr. Biddle to complete the thought.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Biddle. I agree with most of what my colleague said. I 
am very skeptical about the prospects for Indo-Pakistani 
rapprochement any time soon. And I think in the absence of 
that, the way I would prefer we look at India's role in 
Afghanistan is as a part of a strategy for bringing about a 
settlement to the war that will necessarily require Pakistani 
agreement.
    Ms. Ros-Lehtinen. Thank you. I am so sorry, Mr. Chabot, but 
we have so many----
    Ms. Chabot. He has got 6 seconds.
    Ms. Ros-Lehtinen. Okay, go ahead.
    Mr. Biddle. Don't let marginal Indian help in Afghanistan 
overturn relations with Pakistan.
    Ms. Chabot. Thank you very much.
    Ms. Ros-Lehtinen. Thank you. Mr. Higgins is recognized.
    Mr. Higgins. Thank you, Madam Chair. First of all, on the 
issue of Afghanistan, we have been there 12 years. We have lost 
2,092 American troops. We have spent $1 trillion. There is an 
agricultural economy, but it is not one the government controls 
or at least from what we know it is the poppy fields. It is the 
heroin trade. And Gretchen Peters in her book, Seeds of Terror, 
puts the estimate of $\1/2\ billion which goes to fund Taliban 
activities in Afghanistan. Very little has been done about that 
issue. And the Taliban doesn't even own the poppy fields. They 
preside over it. They charge protection, but it funds their 
activities.
    The United States has spent $89 billion, rebuilding the 
roads and bridges of Afghanistan and then the Taliban sets and 
provides explosive devices on the very roads and bridges that 
we built to kill our people. The best way to defeat an IED is 
not to be there. About 63 percent of American casualties are 
attributed to IEDs.
    There has been a lot of talk about Pakistan being a partner 
in defeating terrorist activity over the past 12 years. Well, 
guess what? Pakistan is not helping to defeat terrorism. In 
fact, they are facilitating it.
    Abbottabad is about 70 miles north of the capital city of 
Islamabad. Abbottabad is described as a pleasant weather city 
with lots of educational institutions and military 
establishments. Also the place, prior to the knowledge of bin 
Laden living there, of hundreds of thousands of tourists every 
day. We are up in the mountains of Afghanistan looking for bin 
Laden and he is in one of the most prosperous cities of 
Pakistan. The Pakistani Government, the military, or the 
intelligence services didn't know he was there? He has been 
there for 6 years. How about people just walking by and saying 
I wonder who lives there? He doesn't pay property taxes. He 
added to the compound going against zoning regulations in that 
city.
    Back to Afghanistan, we, the United States have to bribe 
the brother of the President to help his brother, the 
President, build a functioning state. And after 12 years and $1 
trillion and over 2,000 soldiers lost, Afghanistan is nothing 
more than a major criminal enterprise. Afghanistan is as 
violent today as it has ever been. So this talk about staying 
in or leaving or kind of staying in or kind of leaving, it 
seems as though we are getting played. There is always two 
conversations going on in that part of the world, the one that 
the Americans are participating and the ones where they are 
being plotted against. And that is just the reality.
    So I think, you know, we need to develop a new strategic 
policy to try to constrain in some way the bad activity that is 
taking place in both of those countries. And believe me, I am 
not naive about this stuff. I understand. Our Afghan problem is 
really our Pakistan problem. Pakistan is a big country, about 
190 million people, a lot of Islamist extremists and they have 
nuclear weapons, last count 131 of them. A major goal of al-
Qaeda is to gain access to an area with nuclear weapons. But 
the amount of time that we have been there, the lives that have 
been lost because of our excursion there, our distraction away 
from the real problem which was Afghanistan in the early 2000s 
to spend time in Iraq chasing weapons of mass destruction that 
weren't there, this just isn't working.
    So whether we have 30,000 troops at the end of next year or 
50,000, the fact of the matter is things aren't changing. We 
are told that we are not nation building Afghanistan. You know 
what? I was in Kandahar city. I was in Kandahar, the spiritual 
home of the Taliban because that is where all the poppy fields 
are. And the literacy rate for women, 1 percent. One percent. 
What are we told constantly that we are doing there? We are 
building up an Afghan army and security force. Oh, really? With 
a population that is largely illiterate? How do you change 
that? You build schools and power lines and roads to get people 
to those schools. That by definition is nation building. We 
have been played in that part of the world. We continue to be 
played in that part of the world and the American people are 
sick and tired of it. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Higgins.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair. I think it is 
important to remind everybody at the outset of my discussion 
that there was this really tragic event on September 11, 2001 
in which thousands of Americans were killed by folks that found 
safe haven in Afghanistan and we were able to root them out of 
Afghanistan. I also take issue with the idea that there has 
been no improvement and that the place is just as violent as it 
has ever been. I think that flies into the face of every 
statistic I have seen, including the statistic that a huge 
percent of the Afghan population is under the age of 30, 
actually under the age of 20, that there actually is this 
revolution among the youth of this idea that we can discuss our 
differences without resorting to the gun. We can do it by 
having verbal discussions. I think you have seen revolutionary 
changes in a positive way in the population of Afghanistan.
    I would also like to remind that the $3 billion we are 
talking about and sure, at any moment we talk about spending 
taxpayer dollars it is something we should take seriously. But 
that is \1/100\ of what we spend in interest on our debt every 
year which has exploded in the last 5 years.
    I also want to thank you, General, for exposing the farce 
of this idea that golly, we really wanted to stay in Iraq, but 
we just had no choice because they didn't want us. When you 
offer a plan of just a handful of troops, compared to what was 
needed, you really incur upon the Iraqi Government and this was 
the decision they made a much higher political cost than your 
number of troops had the ability to actually counter on the 
other end. And that is my concern with what we are looking at 
in Afghanistan. There is a cost. We have to know it. We have to 
understand it. There is a cost to having American troops when 
it comes to a domestic government having American troops on 
their soil. They know that they become a target of terrorist 
activities. They become the focus of that. But if you end up 
with 7,000, 8,000, 9,000 troops, half of whose job is to clean 
latrines and cook food and secure the gates so that the other 
half may be able to actually exit the gate at some point, you 
almost incur upon the native population a much higher political 
cost than you do any benefit of U.S. troops being there.
    So I think the number of 20,000, 30,000 is not a number 
that has been pulled out of the air. It is a number that says 
if we are going to have an effective counterterrorism strategy 
or if we know a network exists or we know bad actors exist, we 
can send something over that kills that person or captures that 
person to take them out of the mix of being a threat to the 
domestic government of Afghanistan, then that is what we need. 
I would hate for history in 20 years to judge that America lost 
the war in Afghanistan over the difference of 10,000 troops and 
that is what I fear right now.
    In Afghanistan, the Taliban have a saying that says, 
``America has the watches, but we have the time.'' And that, to 
me, is so evident of the fact that this administration made the 
decision to ``surge'' into Afghanistan, but in the same breath 
tried to reassure the American people that we are going to be 
out very quickly. Basically, at the moment the last surge troop 
is going in, the last one is going to exit, so don't worry, 
everybody. The Taliban just simply said okay, so now we have a 
timetable on how long we have to outlast the Americans.
    In Iraq, the reason the surge I believe was so successful 
was not just the addition of thousands of American troops, it 
was the fact that in a time when I even heard a leader from the 
other body in this wonderful body we have here, from the other 
side of the Capitol, stood up and said and I was actually 
getting ready to fly a mission into Afghanistan, and I saw the 
news and I saw this leader say that the war in Iraq is lost. 
And I could only have imagined the cheers that went through the 
opposition at that point. But in the midst of all that bad 
press, the President of the United States, President Bush said 
not only are we not retreating, not only is the war not lost, 
we are doubling down and we are going to win. And we saw the 
opposition forces in Iraq say we can't defeat the United States 
on the battlefield. We have no choice but to join them. That is 
what could and should happen in Afghanistan. The longer we 
debate a post-2014 plan, the longer the administration goes 
without saying what the answer is in Afghanistan, the more 
damage I fear we are doing in the long term.
    Now let me just say one, I guess I have 30 seconds, so Mr. 
Kagan, I will ask you to answer this. Let us say we leave 
Afghanistan as we did Iraq. What is that going to do to the 
morale of the Taliban and to al-Qaeda and to the enemies of the 
United States around the globe?
    Mr. Kagan. It will be an enormous boon to the morale of the 
Taliban and it will be an incredible boon for al-Qaeda which 
will explain they wrongly claim credit for defeating the Soviet 
Union. They are poised to claim credit for defeating the second 
super power and for reclaiming the land on which their movement 
was founded. It would be a devastating blow for us from the 
standpoint of al-Qaeda morale.
    Ms. Ros-Lehtinen. Thank you, Mr. Kinzinger.
    Mr. Schneider is recognized.
    Mr. Schneider. Thank you, Madam Chairman. Thank you to the 
panel for joining us here today.
    I want to turn to Dr. Biddle and Ms. Curtis to the idea of 
as we look at our strategies, as we look going forward, 
whatever we want to accomplish, we cannot accomplish without 
partners. And partners in Afghanistan, ANSF, partners in 
Pakistan.
    Dr. Biddle, I will turn to you first in Afghanistan. What 
is it we need to do immediately, short term, medium term to 
make sure that we have the partnership to get to the choices 
you laid out earlier?
    Mr. Biddle. On the military side of the partnership, I 
think we need to provide funding for the ANSF and the kind of 
enablers people have talked about. On the governance side of 
the partnership, I think the theme, we can talk about the 
particular mechanics if you like, but the theme has to be 
conditionality. The governance problem in Afghanistan which 
also affects the Afghan National Security Forces, it is not 
just a problem of civil government, it exists because malign 
actors in Afghanistan profit from it, prefer it, and want it to 
continue. If that is going to change, the only way it is going 
to change is if the United States uses leverage to change the 
interest calculus of actors who are profiting from the kind of 
misgovernance that we see in the country now.
    The scale of leverage at our disposal is much smaller now 
than it was some years ago, but in principle, anything we do in 
the country is a potential source of leverage. If, in fact, we 
are prepared to use conditionality and shape what we do as a 
tool for changing not the structure of Afghan governance, 
certainly not eliminating corruption in Afghanistan, but to 
bring about a relatively small number of carefully triaged 
governance objectives that we think are critical to making the 
difference between there being a viable non-Taliban alternative 
and not after 2014.
    Mr. Schneider. Are there things we should be doing in the 
immediate term before the next election or are there things we 
should be looking to see after the election to do immediately 
following?
    Mr. Biddle. I think before the election, it is time to do 
the homework. After the election, it is time to execute. We 
don't know what after the election government in Afghanistan is 
going to be yet, but there is a great deal of preparation we 
need to do before we act in any event. There is intelligence 
work that we need to do. There is policy coordination work that 
we need to do. We actually enjoy the advantage of having an 
interregnum in which it doesn't make sense to act initially and 
we ought to use that time to our advantage.
    Mr. Schneider. Thank you. Ms. Curtis, with respect to 
Pakistan and as you touched on, what do we need to do to 
develop a workable partnership with Pakistan vis-a-vis 
Afghanistan?
    Ms. Curtis. Well, I think what we need to do is we need to 
have a dual strategy where we are supporting the civilian 
leadership, the Pakistan civil society through our aid, through 
our diplomatic engagement. But we are also conditioning our 
military assistance to the Pakistan military on its efforts to 
help us in Afghanistan to crack down on the Haqqani network, 
the Taliban leadership.
    We need to be willing to pull the plug on the military aid 
that we provide Pakistan because it is the Pakistani military 
and intelligence services that are making those decisions on 
how they are supporting the Haqqani network and the other 
militant groups. There is a lot of debate about whether this is 
an issue of capability or political will. It is my belief after 
following this region for 20 years that it is more an issue of 
political will. And that while capabilities are an issue, 
particularly when you are looking at the TTP and trying to get 
them under control, that when you are looking at groups like 
the Haqqani network, the Lashkar-e-Tayyiba, the senior Taliban 
leadership, it is more a question of will. And the Pakistanis 
could be doing more to crack down on these groups using their 
leverage to get these groups to compromise for a political 
solution in Afghanistan. I believe that is possible, but we 
need to be willing to put more pressure on Pakistan.
    Mr. Schneider. I think one of the challenges we face though 
and it was highlighted in today's New York Times in a story of 
the question of Pakistan working in collaboration with Afghani 
Taliban and then we see Afghanistan potentially working with 
the Pakistani Taliban. How do we deal with two partners on both 
sides who are oftentimes playing against each other and 
oftentimes playing against us?
    Ms. Curtis. Well, I think that is true. I think it is very 
disconcerting to see that the Afghan Government may have been 
supporting parts of the TTP, a group that has been conducting 
suicide bombings in Pakistan, killed thousands of Pakistanis. 
This is extremely problematic and again, unfortunately, 
Pakistan has relied on violent groups to achieve its foreign 
policy objectives and it just has backfired on Pakistan and I 
would see that story that we saw today as part of that 
backfiring effort and that we need to be able to convince 
Pakistan that that is not in its interests either to support 
these groups.
    Mr. Schneider. Thank you.
    Ms. Ros-Lehtinen. Thank you, Ms. Curtis. Thank you, Mr. 
Schneider.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    General, how much does it cost to have 1,000 troops in 
Afghanistan? You are advocating 30,000 residual troops. How 
much would it cost?
    General Keane. I don't know what that----
    Mr. Rohrabacher. Thirty billion dollars. Does that sound 
out of line?
    General Keane. Absolutely.
    Mr. Rohrabacher. No, that is the estimate of what was given 
to us about a few years ago on the number of cost per troop in 
Afghanistan, $30 billion. This isn't a couple billion. This is 
we were borrowing that money at a time we are cutting back 
services to our own people. And we are borrowing money from 
China in order to maintain a force in Afghanistan.
    Could the fact that we haven't won yet indicate that there 
is something wrong more fundamentally in other than just we 
don't have enough troops there? Do you believe the 
constitution--let me be more clear. Do you believe the 
constitution of Afghanistan which we forced upon the Afghan 
people after the Taliban were kicked out by the Northern 
Alliance, I might add, not by U.S. troops, is that constitution 
consistent with Afghan tradition? Do you know anything about 
the constitution there? It is the most centralized constitution 
of any country in the world that we have foisted upon these 
people which is the most decentralized country in the whole 
world with a tribal culture. They don't even elect their 
provincial leaders, do they? Do you think we would have 
corruption in the United States if we had a government in which 
the President of the United States appointed all the governors 
and then the governors appointed all the chiefs of police and 
all the people responsible for education? Do you think we would 
have a corruption problem here?
    We have forced on these people a system totally 
inconsistent with their tradition and then we are arguing about 
how many troops we are going to keep there because the 
situation is so unstable.
    General, you were in Vietnam. You know, do you think we 
just needed to keep a couple extra troops there and the 
situation would have cleared itself up? There are some 
fundamental decisions that were wrong in Vietnam. And let me 
say that after 9/11, let us remember this, how many people who 
flew the planes into those buildings were Afghans? None. They 
were Saudis. And that operation was probably planned in Saudi 
Arabia and elsewhere and we all know it. Yeah, they were giving 
aid and comfort to Osama bin Laden and we should never forgive 
them for that and I am very happy that we support the Northern 
Alliance to help them free their country from the Taliban which 
was allied with al-Qaeda. But those days are over.
    General, it would not have helped our country to stay in 
Vietnam any longer. We were divided then and going through that 
experience eventually helped us get ourselves together to put a 
better perspective on things.
    We need a better perspective of the role of the United 
States in the world and it is no longer acceptable to the 
people of the United States to be the policemen of the world 
and they have 2,000 guys lost here, 5,000 guys lost here, and 
then they leave the area because the world hates us now because 
we are playing the policeman role. This is--what I am getting 
today is frankly wrong-think. And I am sorry, but I disagree 
with what almost everybody has testified today.
    Let me put it this way. Thirty billion dollars for 30,000 
extra troops in Afghanistan. The whole gross national product 
of that country is $15 billion. And I can assure you the 
experience that I have had in Afghanistan, which is extensive, 
that for $3 billion we can buy off every tribal leader and 
every political leader in that country and we can have them 
wave good-bye to us and for an extra billion dollars, there can 
be smiles on their faces and they can wave American flags. And 
that is more important right now, just get our troops out of 
there, let them run their affair. And this idea that everywhere 
that there is a radical Muslim who pops his head up that we are 
going to send troops over to that country, we should be yes, 
helping the Northern Alliance, helping those people who are 
struggling against the radicals in their own country as they 
are in Egypt right now with Morsi. Morsi was kicked out by al-
Sisi and we should be helping the al-Sisis of the world over 
there and let them do the work. But the last thing we need to 
do is send our troops everywhere in the world any more. The 
American people are tired of it. They are sick and tired of 
being the policemen of the world. It is too expensive and we 
end up having thousands of American lives lost for who knows 
what. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Bera is recognized.
    Mr. Bera. Thank you, Madam Chairwoman. I had the privilege 
of visiting Afghanistan with our chairwoman over Memorial Day. 
And let me just say we met some of the most professional 
troops, men and women that answered the call of duty and have 
performed extremely admirably. But talking to them, talking to 
our leaders on the ground, talking to our intelligence folks on 
the ground, talking to our diplomatic community, and then 
having the opportunity to meet with President Karzai, I don't 
think 30,000 troops solves it. I don't think 10,000. I think 
this is a very difficult part of the world and I think my 
colleague from California, Mr. Rohrabacher, just touched on how 
difficult this part of the world is.
    I also think we haven't touched on what I think the most 
critical factor in Afghanistan's stability is. As we start to 
draw down and I think the American people have spoken pretty 
loud and clear that they are ready to start drawing down, 
whether it is $30 billion or $3 billion, the presence of our 
troops there over this last decade has essentially been the 
driving force of Afghanistan's economy.
    As we draw down and maybe this is for Ms. Curtis or Dr. 
Biddle, I think my biggest fear of Afghanistan falling apart is 
their economy falls apart when we are not there and we are no 
longer pumping those billions of dollars into their economy. I 
would be interested in your thoughts.
    Ms. Curtis. Thank you. There are a couple of issues here. 
There is one, the issue of the troop numbers and I would just 
point out we still have 30,000 troops in Korea, 60 years after 
the war ended. So if we can afford to have a number of troops 
there, I don't see what the issue is with keeping a substantial 
residual force in Afghanistan, about 20,000 troops in the place 
where the 9/11 attacks originated.
    In terms of moving forward and supporting the Afghans, you 
know, it has also been pointed out that we need to continue 
funding the Afghan security forces and if we allow the Afghan 
security forces to kind of flail about on their own without any 
U.S. support, then I think we are going to see the Taliban 
gradually begin to retake parts of the country, allow al-Qaeda 
to reestablish its safe haven there and we do have to think 
about what we have invested there. It is not impossible. We 
don't need to go from 100 to zero. I think there is something 
to be said for a responsible drawdown where we do have gains 
that have been made. I think those were pointed out by a few 
people and it is not as if the people of Afghanistan are not 
better off today than they were under Taliban rule.
    Mr. Bera. Certainly, I don't disagree that our troops have 
not made gains and certainly inside Kabul, when we were there, 
you see stability and you see a somewhat normal way of life. 
Obviously, in the rural parts of the country, it is probably 
much less stable. Since I have only got about a minute and a 
half left, I was also recently in India and the issue of post-
2014 Afghanistan certainly is very present on Indian minds. 
They have invested about $3 billion. I think they stand ready 
to continue to invest in infrastructure, and both their 
industry and their government, want to see a stable 
Afghanistan, obviously. They want to see stability in South 
Asia.
    Maybe Dr. Biddle, India's concern is they won't invest 
those dollars if it is an unstable security situation. So I may 
be contradicting myself, but I understand that we have to have 
some presence and we have to try to have a stable ANSF. But 
what would you like to see India's role being in Afghanistan?
    Mr. Biddle. I would like to see India's role in Afghanistan 
be as part of a larger strategy for dealing with Pakistan. I 
could imagine India being cooperative in a way that would help 
us build leverage with Pakistan. If it is uncoordinated, 
however, mostly what it stands to do is play into Pakistani 
paranoia in a way that isn't constructive and doesn't move our 
agenda forward.
    If I could, I would like to spend just a brief moment 
speaking to the question you raised initially on the economic 
consequences in Afghanistan of the western drawdown. Because 
when I was last there in March, we spent some time with the 
World Bank team and with the Economic Branch and the Embassy 
talking about exactly that question. And to my surprise, their 
assessment was they believed that the economic consequences, 
while negative, would be modest. In fact, their projection is a 
reduction in the growth rate of the Afghan economy, but they 
don't actually project a recession.
    There are a variety of reasons for that that I doubt I will 
be able to detail in 4 seconds, but suffice to say that my 
sense is that the best economic analysis of the country at the 
moment holds that they will not see an economic catastrophe as 
a result of this. I yield back.
    Mr. Weber [presiding]. All right, the gentleman from 
Florida is recognized.
    Mr. Yoho. Thank you, Mr. Chairman, gentlemen, and ma'am, I 
appreciate you all being here.
    I am going to ask my last question first and that is I want 
you to think about this when I come back to you. I want you to 
spend about 30 seconds. What is the role of the U.S. Government 
in the world?
    And then starting with that, General Keane and Dr. Kagan, 
you both said that al-Qaeda is more dispersed around the world, 
throughout the Middle East, and greater in number, and this is 
after $2 trillion in Afghanistan and Iraq, several thousand 
lost lives, tens of thousands of injured soldiers, and this is 
after an 11- to 12-year effort of going over there fighting the 
war terror.
    How much has our intervention over the last 60-plus years 
in the Middle East, how much has that led to the radical 
Islamist terrorists that mean to do us harm like in Beirut, the 
Cole in Yemen, 9/11, and Benghazi that we see today? If one or 
two of you want to answer that real quickly, then we will move 
on to the next question.
    General?
    General Keane. Well, I don't see a direct correlation of 
U.S. involvement in the Middle East and radical Islam. Radical 
Islam is an ideology that has a historical, theological, and 
philosophical foundation for it.
    Mr. Yoho. Right.
    General Keane. And you know how ambitious that ideology is. 
One of the near term strategic objectives to be able to achieve 
their ambitious political goals which is what they are is to 
drive the United States out of the region so they can dominate 
it. The United States is in the region because of genuine 
national interest and we have been there rather significantly 
since post-World War II.
    I don't think you can draw a correlation that that is the 
spark that drives radical Islam. They certainly use it 
politically to their advantage.
    Mr. Yoho. I would love for you to come by our office at 
some point where we could have a more in-depth discussion.
    Dr. Kagan?
    Mr. Kagan. Well, sir, I agree with General Keane on that 
point. I think that this is a movement that has evolved from a 
number of different sources, some of which were related to the 
American presence, some of which weren't. Most of them pre-
dated this significant American presence in the region quite a 
lot and I think we have the problem that al-Qaeda does not 
identify the United States as an enemy because we are in the 
region. They identify the United States as an enemy because of 
what we stand for and who we support.
    Mr. Yoho. You know, I have heard that, but I personally 
don't believe that. I believe it is because we try to put 
western ideologies in their government that they don't want to 
accept: Freedom of religion, freedom of expression, women's 
rights, and all these things that we believe on the western 
side. And we go over there with foreign aid and we say we will 
give you this foreign aid if you do these things. I think we 
are going to disagree on that.
    Let me go to Ms. Curtis and Dr. Biddle. If we develop 
energy security in the U.S., would it change our foreign policy 
in the Middle East, if we had energy independence here in this 
country?
    Mr. Biddle. At the margin, but probably not radically 
because our major trading partners will continue to be 
dependent on the Middle East for energy. To the extent that we 
care about whether Europe, for example, as an economy that can 
trade with us and maintain our economic growth, we therefore 
need to worry not just about where we get our energy, but also 
where our trading partners get it.
    I think at the margin it can mean that we can become less 
militarily engaged, but I don't think it can get to the point 
where we can become independent of events in the Middle East.
    Mr. Yoho. Okay, let me ask what would be a way to negotiate 
a change in foreign policy from military conflicts and to 
capitalize on the investment we have had with human life, the 
trillions we have spent and build one around trade whether it 
is agriculture, construction. Is it feasible with a corrupt 
government in both those countries? And you know, you both said 
you know, that both of those governments are corrupt. And I 
don't understand how we can throw billions and billions of 
dollars over and over again to a corrupt government and expect 
it is going to turn out good. I see it in Egypt and I see it in 
all these countries in the Middle East that we have done over 
and over again.
    And Ms. Curtis, if you could answer that real quickly. And 
I want to get your response to that first question I asked you.
    Ms. Curtis. I think you have made a very good point about 
in the interest of building trade linkages and how that might 
be a more stable relationship than just providing foreign aid 
and this is something that the new Pakistan Government is 
extremely interested in and hopefully we can expand the 
dialogue and try to improve our trade relationship. Even though 
I believe the aid is still important, perhaps focusing more on 
trade rather than just focusing on the aid would be a prudent 
way to approach the relationship with Pakistan.
    And also, promoting regional integration and regional trade 
is extremely important. That means Afghanistan-Pakistan trade, 
Indo-Pak trade, anything we can do to encourage more regional 
economic linkages. That is going to help stabilize that region 
and that will be in our interest as well.
    Mr. Yoho. All right, thank you. Mr. Chairman, I am out of 
time. If you guys would submit that question I asked you, the 
role of the United States Government in the world, I look 
forward to your answers. Thank you.
    Mr. Weber. Thank you. The gentleman from Virginia is 
recognized.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to our 
panel.
    General Keane, you had a lot to do with helping President 
Bush understand the failed policy in Iraq, militarily, and to 
repivot with the counterinsurgency strategy propounded by 
General Petraeus. Is that correct?
    General Keane. Yes. Others participated, not the least of 
which is the man sitting next to me.
    Mr. Connolly. That is right. I remember your name as well, 
Mr. Kagan. That is right.
    We have been in Afghanistan now for 12 years. By one simple 
measurement, that is the longest war we have ever been involved 
in, is that not correct?
    General Keane. Yes, it is.
    Mr. Connolly. The President who ran against Mr. Gore, Vice 
President Gore, inter alia, saying he didn't believe in nation 
building, has spent a lot of money nation building in 
Afghanistan. And included in that nation building was the 
reconstitution or the constitution of a security force of 
350,000 members at a cost estimated of about $40 billion. What 
is your assessment, General, of the ability of that security 
force after those 12 years to deter insurgent threats and to 
create some semblance of peace and stability domestically in 
Afghanistan?
    General Keane. Yes. Just let me briefly say that 12 years 
is driven by choices that we made. We set up a government 
initially of our choosing. And we did not provide initially to 
grow and develop a security force early on. We changed our 
priorities from Afghanistan to Iraq very early. The decision 
was made actually in December 2001 and priorities began to 
shift. Afghanistan from 2002 to late 2008 was on a diet. And we 
never really got after it again in a way that was consequential 
until after President Obama made his decision to escalate.
    Just to put the facts on the table, a lot of our own policy 
decisions drove this long war. I believe the Afghan National 
Security Forces, after all the stumbling that we have done in 
fashioning a coherent strategy for the growth and development 
and the resources to support it, we have finally arrived at a 
point where we have an acceptable force. It has proven its 
mettle in the south. It is now leading operations there and 
according itself. Their casualties have certainly gone up from 
what they used to be when we were in the lead, but those 
preliminary signs are favorable that that investment has been 
worth it.
    As Dr. Kagan and I have both said, we have a problem in the 
east that I don't think they can handle by themselves. And we 
have to assist them as we transition and pull all of our combat 
forces out which we will do. That is already a decision. We 
have to assist with that transition.
    I also believe the training and assistance force is 
important intellectually to stay engaged with them. We need 
officers there to help shape their operations. Those numbers 
are low by comparison to what our commitment is now. Those 
numbers will be in the thousands, but relatively low. What we 
get out of that is exponentially greater than the numbers that 
are there to help shape it. There is a lot we can do to assist 
them.
    The most important thing is they have the courage to fight, 
no doubt about that and we have given them the skill to fight 
and they have now shown that they can handle that. It is 
uncertain what it would be like when we are totally gone and 
that is a question mark. We think the signs are favorable, 
except for what we are dealing with in the east.
    Mr. Connolly. Thank you. Mr. Biddle, Dr. Biddle, there were 
reports in today's New York Times complicating what General 
Keane I think would like to see accomplished and I don't 
disagree, that the Afghan Government has been secretly 
negotiating with elements of the Pakistan Taliban. We captured 
Mr. Mehsud, one of the key leaders in that effort and it raises 
real questions about trust and about the intention of the 
Afghani Government and given what General Keane just said, it 
might be construed as also undermining the work of their own 
security forces. Would you comment?
    Mr. Biddle. Clearly, it has been a major source of friction 
between ourselves and the Afghans and may have had something to 
do with the difficulties and the talks over the Bilateral 
Security Agreement over recent months. That said, I think it is 
only natural that the Afghans are trying to develop leverage 
against what they view as a Pakistani Government that has been 
unhelpful in talks to settle the war.
    The appropriate use of leverage in dealing with Pakistanis 
would ideally be something that we would coordinate across the 
various interested parties on our side of the conflict. This 
was evidently remarkably uncoordinated, but leverage is 
necessary in any negotiation and it is certainly going to be 
necessary in this one and we are not particularly leverage 
rich.
    Mr. Connolly. Thank you. I wish I had more time. This is a 
fascinating panel. Thank you all for being here. Thank you, Mr. 
Chairman.
    Mr. Weber. The gentlelady from Florida is recognized.
    Ms. Frankel. Well, thank you, Mr. Weber. It is a pleasure 
to be here with you. I have enjoyed the discussion and thank 
you all very much. I am sure it is very frustrating for you to 
hear our frustration because really, I think Congress should 
stand in front of a mirror and yell at itself, but with that 
said, you are the ones that get to sit here.
    My son who I am very proud of, a United States Marine, who 
served in Afghanistan and returned in USAID and I also did 
visit Afghanistan with Mr. Wilson, who led a very wonderful 
codel.
    One thing that I found and I would echo Mr. Bera's comments 
that we met with many, many military personnel and I thought 
they were articulate. They were committed. I have nothing but 
very high marks. The other observation I had was that they also 
had what I would see as a narrow view of their own world 
because obviously, you are in the military in Afghanistan, that 
is probably what you are thinking about. You are not thinking 
about educating a kid in West Palm Beach, Florida.
    Anyway, I have often wondered--I studied psychology in 
college and I learned about this principle called cognitive 
dissonance which is basically, it is like there was an Aesop's 
fable, the fox, when he can't reach the grapes he decides well, 
he really didn't want grapes in the first place. I often 
wonder, are we in a situation where we have cognitive 
dissonance which is really defined as a distressing mental 
state that people feel when they find themselves doing things 
that don't fit what they know. And sometimes otherwise they 
take puzzling and irrational and destructive behavior.
    The point being is this, are we supporting continuing 
efforts in Afghanistan because we want to try to feel good 
about what we did even though we know, I think many of us have 
doubts about that. Or is it about national security? And so the 
question I have and I am not sure whether you can answer it, 
but I want you to take a shot at it if you want to because some 
of you would seem to me are coming from the point of view of 
continued military action or involvement in Afghanistan.
    What do you fear is worse to happen to us in this country 
than us not properly educating our children, not modernizing 
our infrastructure, not finding cures for diseases, not feeding 
poor children and elderly? Because those are the choices we 
have to make in Congress, where to put our money.
    General Keane. I will be happy to take a shot at that, 
Congresswoman. It is obviously a very important question and it 
needs to be answered for anybody who is going to advocate 
putting U.S. resources against military operations.
    I am not making a sunk cost argument in Afghanistan. My 
eyes are fixed as clearly as they can be on the people who wake 
up every morning and ask themselves what they can do to kill 
Americans that day. And my answer to your question, ma'am, is 
having more Americans killed on American soil, that I think is 
worse than the various other things that you identified because 
it is the first responsibility of government to protect its 
citizens from death and injury by foreign attack. That is what 
I am preoccupied with and that is what I believe the stakes 
are, otherwise I wouldn't be advocating for military force.
    Ms. Frankel. I will let somebody else answer that, too. 
There are many who believe that it is our economic superiority 
that it will lead to our security.
    I see, Ms. Curtis, you want to answer that?
    Ms. Curtis. I lived in Pakistan in the mid-'90s. I saw the 
rise of the Taliban. I saw what the extremist groups in 
Pakistan, what that meant. And then, of course, 9/11. We just 
cannot afford to go back to 1989. That is when we turned our 
backs on the region after the Soviets left. And I believe that 
over time the result was the 9/11 attacks and I simply believe 
we cannot afford to go back to that situation where we just 
simply throw up our hands, say this is too difficult, and we 
can't make any progress.
    Again, I will reiterate. It is not an either/or option 
here. Certainly, all of the things that you listed are 
extremely important, but I think what I fear is losing our 
sense of freedom and safety here in the U.S. which we certainly 
lost in spades on September 11, 2001. And so I think what is 
driving me to counsel you to continue to support the efforts in 
Afghanistan is that fear that us completely pulling up stakes 
and leaving will embolden the Taliban, will embolden al-Qaeda, 
will provide them a safe haven again, we will be back to where 
we were on September 10, 2001.
    General Keane. You know, the tension that you are 
describing is something your predecessors and national leaders 
have felt for the past 60 years, going all the way back to the 
decisions should we do something about the problem in Europe in 
World War II, etcetera. And those are understandable tensions 
between what are our concerns at home with education and 
poverty and crime and other major issues that this country has 
dealt with for 60 years, and then also our responsibility to 
protect those very people that we are so concerned about, our 
American citizens.
    The fact is the United States is involved in the world. 
From a national security perspective, we have global interests 
in the world. We want open and free markets. We want a stable 
world out there. Radical Islam is a major, major ideology and 
political movement that is threatening the security of the 
United States. And the issue that we are talking about here is 
directly related to that and everybody knows that.
    We are at the cusp of a long involvement with it and we are 
frustrated because it has taken us so long and the fact of the 
matter is some of the key decisions we make now will drive how 
this does turn out. And I think war is fundamentally a test of 
wills and the ultimate objective of it is to break your 
opponent's will. It is our resolve and it is about our 
commitment and it is about our leadership. And I believe that 
is what is needed now. Your leadership, as well to understand 
the issues that we are trying to speak to here, and also our 
national leadership to commit to see this through.
    Ms. Frankel. It is up to the chair. Does anybody else want 
to try?
    Mr. Biddle. Briefly, then. I think probably relative to the 
other members of the panel, I am more skeptical about the 
merits of counterterrorist uses of violence around the world, 
but I make an exception in Afghanistan and South Asia. And 
among the reasons why I make an exception there is the unique 
status of Pakistan as a radically unstable nuclear weapons 
power in which there is a resident of militant groups that have 
expressed threats toward the United States and our allies in 
the West.
    If Pakistan does collapse, if the state loses the 
counterinsurgency war that it is fighting within its own 
borders in Pakistan, that nuclear arsenal could breach 
containment and that is one of the very few ways in which I can 
imagine a terrorist threat to the American homeland reaching 
the scale of weapons of mass destruction in severity. And that 
strikes me as a very unusual problem relative to what the 
United States faces around the world and merits an unusual 
degree of attention and sacrifice in order to address.
    Mr. Connolly. Mr. Chairman, thank you. Just an observation 
I want to share with the panel. Listening to this conversation 
has to be fascinating, especially to those of you who come from 
conservative think tanks. What you heard at this dais today is 
from the right of center and the left of center, real 
skepticism about the continued role of the United States in 
conflicts such as this even when from your point of view and 
mine, U.S. self interests are clearly indicated, given the 
history of Afghanistan. This is part of the consequence, I say 
to you, as conservatives of the obsession with the debt. It has 
led to a false choice. We can either afford to fund a food 
stamp program or we can fund our foreign policy interests. We 
cannot do both. And I would submit that a great power must 
never be forced into such a false choice, otherwise it will not 
remain a great power. But that is where we are. That is what 
you just heard.
    And you heard it echoed in the debate about Syria.
    We could argue the merits of whether a reaction was 
justified, but much of the debate wasn't about that. It was 
about how we are sick of it. We are tired of it and we don't 
want to be dragged into any more conflict irrespective of the 
merits. And to me, I don't know about you, but that is a very 
dangerous place for the United States to be. Debate is healthy, 
but looking at where we have been led because of the obsession, 
frankly, with the debt.
    Thank you, Mr. Chairman, for allowing me to share my 
thoughts.
    Mr. Weber. Now it is my turn. Dr. Kagan, you said in your 
comments, I am paraphrasing, Pakistan hates us like no other 
nation.
    Ms. Curtis, you said you spent some time--was it in 
Pakistan, and you watched the rise of the Taliban in the 1990s.
    General Keane, you said in your comments just a short while 
ago that we are on the cusp of having to deal with radical 
Islam and decision we make are going to be pretty major was 
what you insinuated.
    Now I want you all to square that for me and I will start 
with Dr. Kagan first. You are saying the Taliban has been 
around a long time. Now let me say this. I liked what our 
colleague from New York, Mr. Higgins, said earlier when he said 
that we educate and we train and we build roads and we build 
infrastructure and yet we have a radical Taliban group who 
blows up those very roads that we build in the country. They 
stand for anti-education. Is that true enough? So even though I 
like the idea that we would educate so that those people would 
have a political will, that they would develop the political 
will of their own, they would get educated, they would 
understand they can have freedom if they are ready and willing 
to work and sacrifice and pay one terrific price for it.
    We cannot go in there and absolutely inject with a needle, 
if you will, that political will or that willingness for them 
to sacrifice and pay all kinds of prices, some of them the 
ultimate price, to take their country back.
    So Dr. Kagan, with that in mind, explain to me why it is 
that Pakistan hates us like no other nation?
    Mr. Kagan. Well, Congressman, I don't know why Pakistan 
hates us like no other nation. We poll very poorly in Pakistan. 
Part of that, I think has been because the number of Pakistani 
leaders have seen it as in their interest while receiving a lot 
of money from the United States to run against the United 
States. That is a reality of the world and I don't think there 
is an obvious conclusion that follows from that, frankly, about 
what it is exactly that we should do.
    Mr. Weber. General Keane, how do you explain? I mean, you 
said we are on the cusp of dealing with radical Islam, yet this 
has been going on for a long time, witness Ms. Curtis' comments 
that she watched the rise of the Taliban in the '90s.
    General Keane. The question about the cusp was the 
decisions we are about to make and how they dramatically will 
affect the future stability of Afghanistan and obviously it is 
in relationship to Pakistan because if Afghanistan is 
destabilized as a result of the policy decisions that we make 
where we contribute to it, it obviously will have an adverse 
impact on Pakistan. That is what my comments were. It was not 
to the general issue of radical Islam. I have strong feelings 
about that as well.
    Mr. Weber. I see. I appreciate that. To any of y'all's 
recollection has there been any country that is so devolved in 
this kind of violence and terrorism and we are going to come 
back to your comments, Dr. Biddle, but you were skeptical about 
using counterterrorist violence around the world is what you 
just said a few minutes ago, and we will come back to that. But 
is there any of you who can remember a country that has so 
devolved into the world where an outside nation, i.e., the 
United States came in and we were able to prop them up and get 
their people to understand what was at stake and they were able 
to help them pull themselves up from the bootstraps and they 
are now a successful, thriving, democracy today? Anybody 
remember a country like that?
    Mr. Kagan. I think you can make an argument for Colombia 
along those lines. Large swaths of the country were controlled 
by vicious drug gangs and there was incredible violence in the 
capital. The government was unable to function. We worked 
closely with a very small footprint with Colombians who were 
interested in taking that back and Colombia is now very much 
headed in the right direction and much more democratic, much 
more peaceful and the drug trade is much more under control. So 
yes, I think there are premises. Was it as bad as Afghanistan? 
No, not necessarily.
    Mr. Weber. Forgive me for interrupting, but what kind of 
outlay of manpower, casualties, suffering on our behalf and 
money did the United States----
    Mr. Kagan. It was obviously much more limited than what we 
have put into Afghanistan, but the circumstances were also very 
different and the requirements were very different.
    Mr. Weber. Would you say there was a difference in the 
people, the willingness of the people to actually get involved 
and take their country back?
    Mr. Kagan. Sir, I would not. I have got to tell you that 
for the many months that I have spent in Afghanistan and the 
many Afghans that I have known, and the many people standing up 
in suras fighting against the Taliban after their successors 
were killed and the successors before them were killed, that 
the Afghans are very determined to take the fight and are 
willing to take casualties and have been willing to take 
casualties at a much higher rate than the United States.
    Mr. Weber. Time will tell, won't it?
    And Dr. Biddle, we are going to go to you now. Your comment 
about you were skeptical about the use of antiterrorist, 
counterterrorist violence around the world, what did you mean 
by that?
    Mr. Biddle. Two things. One is I think with respect to any 
tool when it is perceived as free, it tends to be overused. I 
think many of the military instruments we have been using for 
counterterrorist activity have been perceived by some in the 
United States Government as being largely free of cost, but 
especially largely free of risk to the United States and I 
think that necessarily tends to create over use. But I would 
distinguish between terrorist threats to the United States and 
I would not treat them all the same.
    I believe that a terrorist threat of the use of weapons on 
the scale of 9/11 or on the scale of nuclear or biological is a 
serious existential threat to the American way of life and 
warrants the waging of war to prevent.
    Mr. Weber. I.e., the falling of nuclear weapons and 
Pakistan becoming----
    Mr. Kagan. And I believe that is the primary means by which 
that threat could be realized.
    Mr. Weber. Does that also translate over to Iran in your 
estimation?
    Mr. Kagan. My view of Iran tends to be that they have 
powerful disincentives to transfer weapons of that kind to 
terrorist groups. I would prefer that they not get nuclear 
weapons. I see no particular benefit to the United States or 
the region in that happening, but I tend to believe that if 
they get it, the odds that they will transfer the materials are 
relatively modest.
    What worries me about Pakistan is that the state could 
collapse and if that happens, then you don't have to assume 
that a state that could be retaliated against will transfer 
weapons to a terrorist. The weapons simply become loose and 
that strikes me as a very----
    Mr. Weber. Are you also concerned about that in Syria?
    Mr. Kagan. Well, Syria doesn't have----
    Mr. Weber. Well, I get it on nuclear, but we are talking 
about weapons of mass destruction, WMDs.
    Mr. Kagan. And you will note that I mentioned biological 
and nuclear and I did not mention chemical. I believe the scale 
of the threat associated with chemical weapons is significantly 
lower than the other two and warrants different treatment.
    Mr. Weber. Your comment intrigued me. I thank you. And we 
have our distinguished colleague, Mr. Sherman, and I yield 5 
minutes to him.
    Mr. Sherman. Thank you. We are obsessed, of course, as we 
should be with our own national security. The Pakistani 
military is either obsessed with its national security or it at 
least needs to appear to be so if it is going to retain its 
position in that society.
    And one existential threat would be if Afghanistan were to 
be in some alliance with India because India is the traditional 
existential threat to Pakistan. We installed Karzai. It is not 
like he had this huge national following in Afghanistan. And we 
seem to have done so without Pakistan either voicing approval 
or disapproval in any loud way. And then today, the Taliban 
exists pretty much because the ISI wants it to exist.
    What can we do to assuage the Pakistani military that 
Afghanistan will not be a second front in a confrontation with 
India? Why has Karzai allowed the Indian Embassy in Kabul to be 
so robust? And why is he the only Muslim ruler that seems to 
not take the Pakistani side on the Kashmir issue?
    I will look to see if I have got any volunteers? Yes, the 
witness whose name has collapsed in front of you, Mr. Kagan.
    Mr. Kagan. Hopefully, it is just my name that has 
collapsed.
    Look, the Pakistanis are hated in Afghanistan by all sides 
to a remarkable degree and the reason for that is that for the 
past 30 years Pakistani policy in Afghanistan has been to 
supply guys with guns, foster chaos, create death, and do 
absolutely nothing positive for that country.
    Mr. Sherman. If I can interrupt, you are going back 30 
years. Pakistan played a critical role in overthrowing the 
communists, the Russian-supported regime?
    Mr. Kagan. Yes, that is right.
    Mr. Sherman. The Taliban had enough popular support to 
obtain power in Afghanistan, although they were supported by 
the Pakistanis.
    Mr. Kagan. The Taliban was created by the Pakistanis and 
would not have been able to defeat its enemies militarily or 
take control of the country, such control as it had without 
Pakistani support.
    Mr. Sherman. But they also wouldn't have been able to take 
control without Afghan support.
    Mr. Kagan. Yes, of course, that is true. What I can tell 
you is the conversations, again, it is remarkable. As you go 
down to Kandahar, you talk to the tribal chiefs there who are 
fighting against the Taliban. You ask them who these guys are 
and they say they are Pakistanis. You ask them who their enemy 
is, they are Pakistanis. And that is not just because they 
don't want to admit that there is Afghan Taliban.
    My point is that the Pakistanis have been treating problems 
in Afghanistan like a nail, and the hammer that they have is 
supplied guns to bad dudes. They need to figure out that that 
is not going to work and that they need a new policy. And what 
we can best do for them, I think, is to help them figure that 
out.
    Mr. Sherman. General.
    General Keane. I believe if you look at Pakistan, there are 
very few countries in the world that have a history as profound 
as theirs is in making poor strategic choices and 
miscalculations. It is quite extraordinary. And this one with 
the Taliban is another example of it.
    I mean I have felt for some time in dealing with them that 
we should have taken the gloves off a long time ago, maintain a 
relationship with them, but certainly deal much more directly 
with them and I agree with my panel colleague about their aid. 
I think it should have been much more conditioned based and 
this last aid should have that----
    Mr. Sherman. General, if I can interrupt because my time is 
close to expiring. Why did we install a regime in Kabul 
unacceptable to the Pakistani military?
    General Keane. I think why was Karzai installed was the 
issue. We had a relationship with Karzai and the Central 
Intelligence Agency had a relationship with them. These are all 
the things that were done very quickly to put somebody in 
charge. Was it a good decision? Probably not.
    Mr. Sherman. Ms. Curtis?
    Ms. Curtis. I think at the time, Karzai was a good leader 
for the country. He is a Pashtiun. He was a consensus builder. 
Certainly things have fallen off in the last few years and we 
see more corruption. But you know, it really gets at what, is 
Afghanistan a sovereign country? That is like asking why we 
would allow a certain Pakistani leader----
    Mr. Sherman. We didn't allow Karzai to be swept into Kabul 
by a wave of popular support. You are saying Afghanistan is a 
sovereign country and therefore had a chance to select its 
anti-Pakistani leader, it didn't select Karzai. We selected 
Karzai.
    Ms. Curtis. I would refer to Karzai as an anti-Pakistan 
leader.
    Mr. Sherman. But the Pakistani behavior seems to indicate 
that they regard him as an anti-Pakistani leader.
    Ms. Curtis. But I think he has tried to build better 
relations and he has been able to, to a certain degree with 
Pakistan civilian leadership. If you look at the equation 
with----
    Mr. Sherman. How large is the Indian Embassy in Kabul?
    Ms. Curtis. How much aid is India supplying to Afghanistan? 
He is a rational leader.
    Mr. Sherman. I get to ask the questions. I couldn't do your 
job. That is why they gave me mine. Let me go on to another 
question. I thank the chairman for a little additional time. 
And that is Pakistan is a very diverse nation at its upper 
levels there has been an effort to homogenize Pakistan and back 
when there was an East and West Pakistan and even an attempt to 
impose the Urdu language on East Pakistan.
    Now you have a government there that seems to indicate a 
preference for the Urdu language. Should we be reaching out to 
Pakistanis in the various languages they speak or should we 
accede to the wishes of the most Urdu homogenous in Islamabad?
    General?
    General Keane. Well, I cannot comment about the language 
issue, but certainly I do believe we should be working closely 
with Pakistan. What I wasn't able to say before is that I agree 
with my colleague here that the aid in general, it has been a 
mistake to continually provide aid to the military regime that 
is dominating the country. And we should have a condition base 
so that the country moves toward responsible civilian 
government where they can control the military. That is down 
the road. It is generational to be sure. But the path we are 
currently on is not the right one.
    Mr. Sherman. Okay, thank you. I thank the chairman for his 
indulgence.
    Mr. Weber. Ms. Frankel?
    Ms. Frankel. Thank you, Mr. Weber. I do have one followup 
to something to--Dr. Biddle, I am sorry, my glasses are not on. 
Okay, because I am very interested in the point you made about 
what a failed Pakistan would look like and the potential of 
nuclear weapons getting a very bad--worse actor's hand. And I 
would just like to ask if the rest of the panel agrees with 
that and whether you think that is a serious possibility or 
consequence.
    Mr. Kagan. Yes, absolutely. I mean if you are looking at a 
failed Pakistani state, then once you have a state collapse 
scenario, you cannot be confident about how the military forces 
will break down. You certainly have a very large concentration 
of well armed and well trained insurgent fighters who are eager 
to get their hands on those weapons and I do think that it is a 
significant risk that we should be concerned with.
    Ms. Frankel. Where do you put that in the--one to ten, you 
are advocating continued military involvement. Where do you put 
that risk compared to some of the others that you talked about 
today?
    Mr. Kagan. It is a very low probability, extraordinarily 
high risk scenario. Obviously, a lot of things have to go wrong 
to get there. What I am concerned about is that we, from this 
perspective, and I think there are a lot of other reasons why I 
would put ahead of this as higher probability, things that we 
need to be concerned about.
    What I am concerned about is creating conditions in 
Afghanistan or allowing conditions to be created in Afghanistan 
that will conduce to this kind of state collapse and make what 
is now, I think, a very low probability scenario a much higher 
probability. And if I could beg your indulgence for one more 
comment, you know, I have come across as very anti-Pakistani in 
this.
    I want to make the point that Nawaz Sharif has come to 
office trying to focus like a laser beam on getting the 
Pakistani economy turned around. Now I am a little skeptical 
about his ability to do that. But it is a laudable goal. And he 
is doing it with much more energy and creativity than his 
predecessor did and it is very much in our interest for him to 
succeed in that.
    And I think as we talk about how we are going to approach 
the problem of Pakistan at this minute as opposed to in general 
terms, I don't think this is actually a terribly good idea to 
be pulling aid or talking about taking aid out. I think it is 
worthwhile giving Sharif a chance to try to turn the Pakistani 
economy around.
    Ms. Frankel. Ms. Curtis, did you want to answer that?
    Ms. Curtis. Yes, I just wanted to say I would characterize 
the risk of Pakistan's nuclear weapons falling into the hands 
of extremists as a high risk, low probability scenario. I think 
the Pakistani military is a competent force and the senior 
leaders understand the importance of keeping the nuclear 
weapons safe and the U.S. has assisted in this effort which is 
important for maintaining our engagement with Pakistan. I have 
made that point.
    But I think the links to the extremist elements in Pakistan 
are worrisome and that if you do have a scenario where 
Afghanistan falls back on the Taliban sway, there will be 
blowback into Pakistan. And as Dr. Kagan pointed out, this, 
what I would call high risk, low probability scenario then 
becomes a high risk, high probability scenario.
    General Keane. Let me just follow up. You have the Central 
Intelligence Agency and the Department of Defense spend a lot 
of effort on this issue of nuclear weapons in Pakistan. And we 
have had the opportunity to check on the security of those 
weapons and were somewhat comforted that the military 
establishment has that as a top priority to protect those 
weapon systems.
    There are some issues surrounding that though because 
Pakistan has made a decision to go to tactical nuclear weapons 
as opposed to the strategic nuclear weapons they have now which 
means that you can fire a nuclear weapon out of an artillery or 
rocket capability that we used to have by the tens of thousands 
and have destroyed them since the conventions with the Soviet 
Union. That escalation gives people pause for concern because 
of the numbers of those and the multiple locations they will be 
at. If they would ever be of any use you have to decentralize 
those weapons to many more locations. So that is an issue.
    The second issue is our Department of Defense has very high 
on its list of scenarios for this issue in dealing with an 
implosion of a government and what do we do about those nuclear 
weapons. And it has been practiced and practiced and practiced 
in dealing with the reality of that issue.
    Ms. Frankel. So I am not trying to put words in anyone's 
mouth. So is your top fear 9/11-type scenarios? Is that like 
number one most probable risk?
    Mr. Kagan. I don't think it would look like 9/11 again. My 
concern is that you have a global organization that is trying 
to bring the war to our shores and that enabling them and 
giving them a victory of this variety and giving them a staging 
area of this variety will make it more likely that they will 
bring the war to our shores. That is my higher probability, 
perhaps lower risk, but still intolerable.
    Ms. Frankel. In some of type of terrorist attack, maybe 
not----
    Mr. Kagan. I am more concerned about the possibility of a 
terrorist campaign because among other things, we have watched 
these terrorist organizations evolve away from the one off 
spectacular attack to the multiple attacks, smaller and so 
forth that in some respects could do even more damage to the 
American psyche.
    Ms. Frankel. You are in agreement with that?
    Ms. Curtis. Yes. I also am concerned about emboldening the 
Taliban and al-Qaeda and other extremist groups in the region 
and outside of the region if the terrorists can then 
propagandize and show that they were able to defeat not only 
the U.S., but the 40-odd NATO countries as well.
    Ms. Frankel. And one last, would this be--is the concern 
some type of a physical conflict or incident or cyber security 
breach or both?
    Mr. Kagan. When you are talking about al-Qaeda, the 
principal threat is physical attack. They haven't to my 
knowledge developed a very sophisticated cyber attack wing 
although they are getting more sophisticated at that.
    Ms. Frankel. Thank you, Mr. Weber, and I yield back my 
time.
    Mr. Weber. General Keane, you said something that got my 
attention that they now have tactical nuclear weapons. I think 
in all my reading, if I remember correctly, Pakistan has 100 
nuclear weapons. Does that sound right?
    General Keane. I think that is a generally-accepted number 
in public sources.
    Mr. Weber. Okay. So you are saying I think what the 
gentlelady from Florida was driving at if there is another 
attack along those lines, it will be far worse than 9/11, 
especially if they were able to use one of those weapons, 
whether they were to use them against our ally Israel and draw 
us over there. So with that in mind, what would the four of 
you, each of you offer? How do you fix that for Pakistan? What 
is your recommendation? Okay, so they have got these nuclear 
weapons. They hate us like no other nation on earth was part of 
your testimony. What do we do about that? What is the best case 
scenario?
    General Keane, you look the most anxious.
    General Keane. To me, it is not a military answer. It has 
to do more with Pakistan's internal situation, you know, a 
stronger government, less corrupt, that is responsive to the 
needs of its people that is capable of controlling a military 
is something that is desperately needed as opposed to the 
reverse, a military that dominates the country and dominates 
the civilian government and puts itself and its needs first. 
Those are the kind of things that I think are needed and I 
think in a sense we know how to do that. And a much more----
    Mr. Weber. We do know how to do that, but as was already 
previously stated, it might have been Mr. Connolly who said 
they don't like it when we come over there to try to help them 
do that. So how do you get around that? How do you placate that 
hatred for Americans when we come over there to try to help 
them do that?
    And Dr. Biddle, you looked awful anxious to mash your 
button.
    General Keane. Let the doctor mash his button.
    Mr. Weber. All right. My wife tells me you don't mash a 
button, you press a button. I said look, in Texas, we mash 
buttons. Go ahead.
    Mr. Kagan. Preempting a military officer is a dangerous 
thing, but I will offer some brief commentary which is that 
there are very few bilateral policy options we enjoy toward 
Pakistan that I think have very much traction for us at all. 
There is a serious problem there that poses serious risks to 
us. There is very little that we can do, I think, positively to 
make the situation better. Given that, I think in many ways the 
appropriate policy stance for the United States is to invoke 
the Hippocratic Oath, and at least----
    Mr. Weber. Do no harm.
    Mr. Kagan. Don't make a bad situation that it is very hard 
for us to improve any worse than it needs to be. And the reason 
why I care about Afghanistan is because it seems to me that 
failure of the project there is actually a serious opportunity 
for us to make things considerably worse in Pakistan than they 
might be otherwise. And in an environment where it is very hard 
for us to improve things, avoiding making them worse than they 
need to be strikes me as an unusual policy priority. And I 
think the key issue in policy priority toward Pakistan is the 
collapse of the state is the primary threat to the United 
States. I don't worry nearly as much about Pakistani nuclear 
weapons leaking out or somehow being stolen by terrorists, as 
long as the Pakistani Government is intact and as long as their 
control of their nuclear arsenal is no worse than it is today.
    It is if they lose their war that I think we have got a 
problem that poses literally unique national security issues 
for the United States. And our primary leverage over that, I 
suspect at the end of the day, limited as it is, is our 
influence over what happens in Afghanistan.
    Mr. Weber. You are not real encouraging.
    Mr. Kagan. Sorry.
    Ms. Curtis. If I may make a quick clarification? So 
Pakistan's development of tactical nuclear weapons is mainly to 
counter what it perceives as the Indian threat. So to the 
extent that we can encourage Indo-Pakistani talks, strategic 
stability talks to try to reduce their nuclear arsenals or at 
least put in mechanisms that provide more stability in the 
region, I think that is where we can help on that issue.
    When it comes to, you talk about Pakistani hatred toward 
the U.S., I think it is important to remember that we have seen 
that the Pakistani intelligence services often feed negative 
stories to the Pakistani media about the U.S. They try to fuel 
this anti-U.S. sentiment.
    Mr. Weber. You mean like we are spying on the Germans?
    Ms. Curtis. I think what I was going to say it was 
important for us to engage directly with civil society, the 
civilian leadership to ensure that we are not just focusing all 
of our attention on engaging with the military leadership.
    Mr. Weber. Well, they have called votes. It looks like we 
have picked you all's brains as long as we can. So I thank the 
witnesses and this hearing is adjourned.
    [Whereupon, at 4:42 p.m., the joint subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[Note: Responses were not received prior to printing.]

                                 <all>

</pre></body></html>
